No. 21In the

Supreme Court of the United States
MOHAMMAD SHARIF KHALIL,
Petitioner,
v.
UR JADDOU, et al.,
Respondents.
On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Ninth Circuit

PETITION FOR A WRIT OF CERTIORARI
K athryn H. Brady
Counsel of Record
A llie J. Hallmark
Franchel D. Daniel
Charles D. Swift, Director
Constitutional Law Center
for Muslims in A merica
100 North Central Expressway,
Suite 1010
Richardson, TX 75080
(972) 914-2507
kbrady@clcma.org
Counsel for Petitioner
305353

A
(800) 274-3321 • (800) 359-6859

i
QUESTION PRESENTED
The Immigration and Nationality Act (INA) identifies
various “terrorist activities” that render a noncitizen
inadmissible. 8 U.S.C. § 1182(a)(3)(B). The REAL ID Act
of 2005 amended the INA to, among other things, add a
ground of inadmissibility for receipt of “military-type
training . . . from or on behalf of any organization that,
at the time the training was received, was a terrorist
organization (as defined in clause (vi)).” Id. § 1182(a)
(3)(B)(i)(VIII). No other terrorism-related grounds of
inadmissibility under § 1182 include the language “at the
time” to describe the conduct at issue.
In the early–mid 1980s, Petitioner Mohammad Sharif
Khalil fought against the Soviets with the U.S.-backed and
trained war-time ally known as Jamiat-i-Islami (Jamiat).
Mr. Khalil disclosed his background with Jamiat and
was granted asylum in 2000. In its 2019 denial of Mr.
Khalil’s application to adjust status, U.S. Citizenship and
Immigration Services claimed that beginning in the late
1980s, Jamiat qualified as an undesignated “Tier III”
terrorist organization under § 1182(a)(3)(B)(vi)(III) of the
INA, as amended by the PATRIOT Act of 2001.
The question presented is:
Whether the INA, as amended by the REAL ID Act,
permits the government to retroactively deem a noncitizen
inadmissible for receiving military-type training from or
on behalf of a group that the United States did not consider
a terrorist organization “at the time” of his training.

ii
PARTIES TO THE PROCEEDING
Petitioner Mohammad Sharif Khalil was the PlaintiffAppellant below.
Francis Cissna, in his official capacity as Director
of U.S. Citizenship and Immigration Services; Kevin
McAleenan, in his official capacity as Acting Secretary
of the U.S. Department of Homeland Security; and Loren
K. Miller, in his official capacity as Director of the U.S.
Citizenship and Immigration Services, Nebraska Service
Center, were the Defendants in the District Court.
Kenneth Cuccinelli, in his official capacity as Acting
Director of U.S. Citizenship and Immigration Services,
and Chad Wolf, in his official capacity as Acting Secretary
of the U.S. Department of Homeland Security, were
substituted pursuant to Federal Rule of Civil Procedure
25(d) and were the Appellees in the Circuit Court.
Ur Jaddou, in her official capacity as Director of U.S.
Citizenship and Immigration Services, and Alejandro
Mayorkas, in his official capacity as Secretary of the U.S.
Department of Homeland Security, are currently in the
respective positions and have been substituted pursuant
to Rule 25(d).
Accordingly, Ur Jaddou, Alejandro Mayorkas, and
Loren K. Miller are the Respondents before this Court.

iii
RELATED CASES
There are no related cases other than the opinions
identified below in this matter:
Khalil v. McAleenan, et al., No. 2:18-cv-07903-DMGKS, United States District Court for the Central District
of California, Western Division. Judgment entered Jan.
21, 2020.
Khalil v. Cissna, et al., No. 20-55323, United States
Court of Appeals for the Ninth Circuit. Judgment entered
Mar. 12, 2021.

iv
TABLE OF CONTENTS
Page
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDING . . . . . . . . . . . . . . . . ii
RELATED CASES . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  iii
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . iv
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . . vi
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . . . vii
INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
JURISDICTION  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
CONST I T U T IONA L A N D STAT U T ORY
PROVISIONS INVOLVED . . . . . . . . . . . . . . . . . . . . . 3
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 5
A. Statutory and Legal Background  . . . . . . . . . . . . 5
B. Factual and Administrative Background  . . . . . 8
C. Lower Court Proceedings  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 11
REASONS FOR GRANTING THE PETITION . . . . 14

v
Table of Contents
Page
I.

THE DECISION BELOW CONFLICTS
WITH JUDICIAL INTERPRETATIONS
OF IDENTICAL LANGUAGE . . . . . . . . . . . . . 14

II. THE DECISION BELOW BUILDS ON
AN EXISTING CIRCUIT SPLIT  . . . . . . . . . . 16
III. THE DECISION BELOW IS WRONG . . . . . . 19
IV. THE DECISION BELOW BETRAYS
WA R-TIME A LLIES A ND M A KES
AMERICA LESS SAFE  . . . . . . . . . . . . . . . . . . 28
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32

vi
TABLE OF APPENDICES
Page
APPENDIX A — OPINION OF THE UNITED
STATES COURT OF APPEALS FOR THE
NINTH CIRCUIT, FILED MARCH 12, 2021 . . . . 1a
APPENDIX B — ORDER OF THE UNITED
STATES DISTRICT COURT FOR THE
CENTRAL DISTRICT OF CALIFORNIA,
FILED JANUARY 21, 2020  . . . . . . . . . . . . . . . . . . . 5a
APPENDIX C — DECISION OF THE U.S.
CI T I ZENSH I P A N D I M M IGR AT ION
SERVICES, DATED MARCH 21, 2019 . . . . . . . . . 13a
APPENDIX D — 8 U.S.C. § 1182(a)(3)(B) . . . . . . . . . 32a
APPENDIX E — NOTICE OF INTENT TO
DENY OF THE U.S. CITIZENSHIP AND
I M M IGR AT ION SERV IC E S , DAT ED
NOVEMBER 16, 2018 . . . . . . . . . . . . . . . . . . . . . . . . 37a
APPENDIX F — NOTICE OF INTENT TO
DENY OF THE U.S. CITIZENSHIP AND
I M M IGR AT ION SERV IC E S , DAT ED
FEBRUARY 14, 2019  . . . . . . . . . . . . . . . . . . . . . . . .  47a

vii
TABLE OF AUTHORITIES
Page(s)
SUPREME COURT CASES
Barber v. Gonzales,
347 U.S. 637 (1954)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
Barnhart v. Sigmon Coal Co.,
534 U.S. 438 (2002) . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
BFP v. Resol. Tr. Corp.,
511 U.S. 531 (1994)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
Bostock v. Clayton Cty.,
140 S. Ct. 1731 (2020)  . . . . . . . . . . . . . . . . . . . . . . . . . 21
Caminetti v. United States,
242 U.S. 470 (1917)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
Carcieri v. Salazar,
555 U.S. 379 (2009) . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
Chevron, U.S.A., Inc. v. Nat. Res. Def. Council, Inc.,
467 U.S. 837 (1984)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
Dep’t of Revenue of Or. v. ACF Indus.,
510 U.S. 332 (1994)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
Fong Haw Tan v. Phelan,
333 U.S. 6 (1948) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27

viii
Table of Authorities
Page(s)
Hughes Aircraft Co. v. Jacobson,
525 U.S. 432 (1999) . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
INS v. Cardoza-Fonseca,
480 U.S. 421 (1987) . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
INS v. St. Cyr,
533 U.S. 289 (2001) . . . . . . . . . . . . . . . . . . . . . . . . 24, 25
Kaiser Aluminum & Chem. Corp. v. Bonjorno,
494 U.S. 827 (1990) . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
Landgraf v. Usi Film Prods.,
511 U.S. 244 (1994)  . . . . . . . . . . . . . . . . . . . . . . . . 24, 25
Lindh v. Murphy,
521 U.S. 320 (1997) . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
Nasrallah v. Barr,
140 S. Ct. 1683 (2020) . . . . . . . . . . . . . . . . . . . . . . . . . . 5
New Prime Inc. v. Oliveira,
139 S. Ct. 532 (2019) . . . . . . . . . . . . . . . . . . . . . . . . . . 21
Pa. Dep’t of Pub. Welfare v. Davenport,
495 U.S. 552 (1990)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
Perrin v. United States,
444 U.S. 37 (1979)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

ix
Table of Authorities
Page(s)
Rubin v. Islamic Republic of Iran,
138 S. Ct. 816 (2018)  . . . . . . . . . . . . . . . . . . . . . . . . . . 22
Sessions v. Dimaya,
138 S. Ct. 1204 (2018) . . . . . . . . . . . . . . . . . . . . . . . . . 27
United States v. Curtiss-Wright Exp. Corp.,
299 U.S. 304 (1936) . . . . . . . . . . . . . . . . . . . . . . . . . . . 30
United States v. Ron Pair Enters.,
489 U.S. 235 (1989) . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
Vartelas v. Holder,
566 U.S. 257 (2012) . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
CIRCUIT COURT CASES
Adrien v. U.S. Att’y Gen.,
194 F. App’x 748 (11th Cir. 2006) . . . . . . . . . . . . . . . . 15
Amrollah v. Napolitano,
710 F.3d 568 (5th Cir. 2013) . . . . . . . . . . . . . . . . passim
Janjua v. Neufeld,
933 F.3d 1061 (9th Cir. 2019) . . . . . . . . . . . . . . . passim
McAllister v. U.S. Att’y Gen.,
444 F.3d 178 (3d Cir. 2006) . . . . . . . . . . . . . . . . . . . . . . 7
Moran v. Ashcroft,
395 F.3d 1089 (9th Cir. 2005) . . . . . . . . . . . . . . . . . . . 15

x
Table of Authorities
Page(s)
Muratoski v. Holder,
622 F.3d 824 (7th Cir. 2010) . . . . . . . . . . . . . . . . . . . . 15
Sanchez v. Holder,
560 F.3d 1028 (9th Cir. 2009) . . . . . . . . . . . . . . . . . . . 15
Soc’y for the Propagation of the Gospel v.
Wheeler,
2 Gall. 105, 22 F. Cas. 756, F. Cas. No. 13156
(C.C.N.H. 1814)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
Ventura v. Sessions,
907 F.3d 306 (5th Cir. 2018) . . . . . . . . . . . . . . . . . . . . 24
STATUTES
5 U.S.C. § 706(2)(A)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
8 U.S.C. § 1158(b)(2)(A)(v) . . . . . . . . . . . . . . . . . . . . . . . . . 9
8 U.S.C. § 1182  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
8 U.S.C. § 1182(a)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
8 U.S.C. § 1182(a)(3) . . . . . . . . . . . . . . . . . . . . . . . . 5, 23, 31
8 U.S.C. § 1182(a)(3)(B)  . . . . . . . . . . . . . . . . . . . . . . . 4, 5, 6
8 U.S.C. § 1182(a)(3)(B)(i)(I)  . . . . . . . . . . . . . . . . . . . . 9, 10

xi
Table of Authorities
Page(s)
8 U.S.C. § 1182(a)(3)(B)(i)(VII) . . . . . . . . . . . . . . . . . . . . . 7
8 U.S.C. § 1182(a)(3)(B)(i)(VIII) . . . . . . . . . . . . . . . passim
8 U.S.C. § 1182(a)(3)(B)(iv)(V) . . . . . . . . . . . . . . . . . . . . . . 7
8 U.S.C. § 1182(a)(3)(B)(iv)(VI) . . . . . . . . . . . . . . . . . . . . . 7
8 U.S.C. § 1182(a)(3)(B)(vi) . . . . . . . . . . . . . . . . . . . . . . 4, 23
8 U.S.C. § 1182(a)(3)(B)(vi)(III) . . . . . . . . . . . . . . . . . . . . . 6
8 U.S.C. § 1182(a)(6)(C)  . . . . . . . . . . . . . . . . . . . . . . . . . . 23
8 U.S.C. § 1182(a)(6)(C)(ii)(II) . . . . . . . . . . . . . . . . . .  15, 16
8 U.S.C. § 1182(a)(6)(E) . . . . . . . . . . . . . . . . . . . . . . . . . . 14
8 U.S.C. § 1182(a)(6)(E)(iii)  . . . . . . . . . . . . . . . . . . . . . . . 14
8 U.S.C. § 1182(d)(11) . . . . . . . . . . . . . . . . . . . . . . . . .  14, 15
8 U.S.C. § 1227  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5, 28
8 U.S.C. § 1229a  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28
8 U.S.C. § 1229a(a) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
8 U.S.C. § 1229a(e) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

xii
Table of Authorities
Page(s)
8 U.S.C. § 1252(a)(2)(B)(ii) . . . . . . . . . . . . . . . . . . . . . . . . 12
8 U.S.C. § 1252(a)(5) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
18 U.S.C. § 2339D . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
28 U.S.C. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
Antiterrorism and Effective Death Penalty Act of
1996, Pub. L. No. 104-132, 110 Stat. 1214 . . . . . . . . . . 5
Emergency Supplement a l Appropr iations
A c t for D e fe n s e , t he Glob a l Wa r on
Te r r or, a nd T su n a m i R el ie f of 2 0 0 5 ,
Pub. L. No. 109-13, 119 Stat. 231 . . . . . . . . . . . . . . . . . 6
Illegal Immigration Reform and Immigrant
Responsibility Act of 1996, Pub. L. No.
104-208, 110 Stat. 3009 . . . . . . . . . . . . . . . . . . . . . . . . . 5
Immigration Act of 1990, Pub. L. No. 101-649,
104 Stat. 4978 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
Intelligence Authorization Act for Fiscal Year
2003, Pub. L. No. 107-306, 116 Stat. 2383
(2002)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
Uniting and Strengthening America by Providing
Appropriate Tools Required to Intercept
a nd Ob st r uc t Ter r or i sm A c t of 2 0 01,
Pub. L. No. 107-56, 115 Stat. 272 . . . . . . . . . . . . . . . . . 6

xiii
Table of Authorities
Page(s)
BOARD OF IMMIGRATION APPEALS
PROCEEDINGS
In re Farias-Mendoza,
21 I. & N. Dec. 269, 1997 BIA LEXIS 22
(BIA May 7, 1997) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
In re S-K-,
23 I. & N. Dec. 936 (BIA 2006) . . . . . . . . . . . . . . . . . . 7
LEGISLATIVE MATERIALS
51 Cong. Rec. S3775 (2005) . . . . . . . . . . . . . . . . . . . . . . . 21
9/11 Commission, The 9/11 Commission Report: Final
Report of the National Commission on Terrorist
	Attacks Upon the United States (2004) . . . . . . . . . . 6
H.R. Rep. No. 109-72 (2005)  . . . . . . . . . . . . . . . . . . . . 7, 28
Iraqi Volunteers, Iraqi Refugees: What is
America’s Obligation: Hearing Before the
H. Subcomm. on the Middle E. and S. Asia,
Comm. on Foreign Affs., 110th Cong. (2007)  . .  29-30
OTHER SOURCES
Antony J. Blinken, U.S. Sec’y of State, in Brussels,
Belg., U.S. Dep’t of State (June 13, 2021), https://
www.state.gov/secretary-antony-j-blinken-oncnns-state-of-the-union-with-dana-bash/  . . . . . . . . 30

xiv
Table of Authorities
Page(s)
At the time (that); at the time (when), Garner’s
	Modern English Usage (4th ed. 2016) . . . . . . . . . . . 20
At the time of (something), M erriam-Webster
Dictionary, https://www.merriam-webster.
com /d ic t ion a r y/at% 2 0 t he%2 0 t i me%2 0
of %2 0 %2 8 s omet h i ng %2 9 ( l a st v i s it e d
June 14, 2021) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
At the time, Longman Dictionary of Contemp.
Eng., https://www.ldoceonline.com/dictionary/
at-the-time (last visited June 14, 2021) . . . . . . . . . . . 20
Brian G. Slocum, The Immigration Rule of
Lenity and Chevron Deference, 17 G eo .
Immigr. L.J. 515 (2003) . . . . . . . . . . . . . . . . . . . . . . . . 27
C h a r l e s K r a u t h a m m e r, T h e R e a g a n
Doc tr in e, Wa s h . P o s t (Ju ly 19, 19 8 5),
https://w w w.washingtonpost.com/archive/
politics/1985/07/19/the-reagan-doctr ine/
b2a06583-46fd-41e5-b70d-c949dd3c50c2/ . . . . . . . . . 8
Christian Parenti, America’s Jihad: A History of
Origins, 28 (3) Soc. Just. 31 (2001) . . . . . . . . . . . . . . 29
Jenna Krajeski, A victim of terrorism faces
deportation for helping terrorists, New Yorker
(June 12, 2019), https://www.newyorker.com/
news/news-desk/a-victim-of-terrorism-facesdeportation-for-helping-terrorists  . . . . . . . . . . .  30-31

xv
Table of Authorities
Page(s)
Jonathan Landay and Idrees Ali, U.S. to start
eva cuating some un der-threat Afghan
visa applicants, R euters (July 14, 2021),
https://w w w.reuters.com/world/exclusiveus-expected-announce-start-evacuationafghan-visa-applicants-2021-07-14/ . . . . . . . . . . . . . . 30
Kira Monin et al., Refugees and Asylees in the
United States, Migration Pol’y Inst. (May 13,
2021), https://www.migrationpolicy.org/article/
refugees-and-asylees-united-states-2021  . . . . . . . . . 9
Maria Sacchetti, ICE, CBP to stop using ‘illegal
alien’ and ‘assimilation’ under new Biden
administration order, Wash. Post (Apr. 19, 2021),
https://www.washingtonpost.com/immigration/
illegal-alien-assimilation/2021/04/19/9a2f878e9ebc-11eb-b7a8-014b14aeb9e4_story.html . . . . . . . . . 5
Oral arg ument, Khalil v. Cissna, No. 20 55323, 2021 U.S. App. LEXIS 7298 (9th
Cir. Mar. 3, 2021) https://www.ca9.uscourts.
gov/media/view.php?pk_id=0000036505 . . . . . . 26, 29
R e stat em en t (S econ d) of J u d gm en t s § 27
(A m. L. Inst. 1982) . . . . . . . . . . . . . . . . . . . . . . . . . . . .  17
Stephen M. Shapiro et al., S u preme C ourt
	Practice (11th ed. 2019) . . . . . . . . . . . . . . . . . . . . . . . 29

1
PETITION FOR A WRIT OF CERTIORARI
Petitioner Mohammad Sharif Khalil respectfully
petitions for a writ of certiorari to review the judgment of
the United States Court of Appeals for the Ninth Circuit
in this case.
INTRODUCTION
By September 11, 2021, the United States will have
completed its withdrawal of forces from Afghanistan.
Simultaneously, the government is evacuating thousands
of Afghan visa applicants whose lives are at risk because of
the work they did for American forces fighting the Taliban.
See discussion infra Section IV. This case implicates an
important and recurring foreign policy question affecting
those applicants and many others: After serving alongside
the United States in conflicts around the world, can our
war-time allies trust that we will not turn our backs on
them when they seek refuge?
Mr. Khalil is one of many asylees who fought against the
Soviets with Jamiat-i-Islami (Jamiat)—a U.S.-supported
and U.S.-trained group in Afghanistan. Jamiat was not
designated and did not qualify as a terrorist organization
at the time Mr. Khalil received the training in the earlymid 1980s. Years after he disclosed this background and
obtained asylum in the United States, the government
denied his request for adjustment of immigration status
on the ground that he had engaged in terrorist activity
during his involvement with Jamiat. In its final denial,
the government raised a new ground of inadmissibility,
claiming that Mr. Khalil had received military-type
training from a Tier III terrorist organization.

2
The Ninth Circuit panel expressed its concern that
the government’s position in this case sends the message
to U.S.-allied fighters that “the United States will betray
you. It will treat you as a terrorist.” See infra Section
IV. But apparently believing it had no choice, the court
adopted a flawed view of retroactivity and an incorrect
interpretation of the REAL ID Act. Consequently, its
decision conflicts with cases involving similar language
and with the plain language of the statute itself, which
expressly requires that the group from which the
noncitizen received training was a terrorist organization
“at the time” of the training. Not only did the court of
appeals flout the rules of statutory construction and render
these words superfluous, it also exacerbated a circuit split
between the Fifth and Ninth Circuits.
An interpretation of the REAL ID Act that retroactively
renders Mr. Khalil inadmissible for receiving militarytype training from a group not considered a terrorist
organization at the time of his training undermines the
statute’s stated purpose—to prevent future terrorist
attacks by identifying and removing terrorists who exploit
the asylum system to infiltrate and harm the United
States. The court of appeals’ interpretation simultaneously
excludes deserving noncitizens from adjusting status yet
permits these same noncitizens to remain in the country
as asylees and refugees despite being labeled as threats
to national security. With thousands more allies-turnedrefugees on the way, this Court’s intervention is urgently
needed.

3
OPINIONS BELOW
The Ninth Circuit’s decision is not reported but
available at Khalil v. Cissna, No. 20-55323, 2021 U.S. App.
LEXIS 7298 (9th Cir. Mar. 12, 2021). Pet. App. 1a-4a. The
District Court’s decision is not reported but available at
Khalil v. McAleenan, No. 2:18-cv-07903-DMG-KS, 2020
U.S. Dist. LEXIS 37626 (C.D. Cal. Jan. 21, 2020). Pet.
App. 5a-12a.
JURISDICTION
The Ninth Circuit entered judgment on March 12,
2021. This Court’s July 19, 2021 Order provides that for
any case in which the judgment was entered prior to July
19, 2021, the deadline to petition for a writ of certiorari
was extended to 150 days from the date of the lower
court judgment. Petitioner timely filed this Petition on
August 9, 2021, within 150 days of that judgment. This
Court has jurisdiction under 28 U.S.C. § 1254(1).
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
The Immigration and Nationality Act, as amended
by the REAL ID Act of 2005, provides in relevant part:
(i) In general. Any alien who—
(VIII) has received military-type training
(as defined in [18 U.S.C. § 2339D(c)(1)]) from
or on behalf of any organization that, at the
time the training was received, was a terrorist
organization (as defined in [8 U.S.C. § 1182(a)
(3)(B)(vi)]); [] . . . is inadmissible.

4
8 U.S.C. § 1182(a)(3)(B)(i)(VIII).
The INA, as amended by the USA PATRIOT Act of
2001, defines “terrorist organization” as an organization:
(I) designated under section 219 [8 U.S.C.
§ 1189];
(II) otherwise designated, upon publication in
the Federal Register, by the Secretary of State
in consultation with or upon the request of the
Attorney General or the Secretary of Homeland
Security, as a terrorist organization, after
finding that the organization engages in the
activities described in subclauses (I) through
(VI) of clause (iv); or
(III) that is a group of two or more individuals,
whether organized or not, which engages in, or
has a subgroup which engages in, the activities
described in subclauses (I) through (VI) of
clause (iv).
8 U.S.C. § 1182(a)(3)(B)(vi).
Other relevant portions of the INA, 8 U.S.C. § 1182(a)
(3)(B), are reproduced in the Appendix, infra Pet. App.
32a-36a.

5
STATEMENT OF THE CASE
A. Statutory and Legal Background
Originally enacted in 1952, the Immigration and
Nationality Act (INA) delineates numerous grounds that
exclude noncitizens1 from receiving visas and admission
into the United States. 8 U.S.C. § 1182(a). A noncitizen
described in § 1182(a)(3) of the INA is deportable under 8
U.S.C. § 1227 and may be placed in removal proceedings
based on any of the § 1182 grounds of inadmissibility. 8
U.S.C. §§ 1229a(a), (e). In 1990, Congress amended the INA
to, among other things, exclude and deport noncitizens for
participation in terrorist activities. See Immigration Act of
1990, Pub. L. No. 101-649, 104 Stat. 4978. The amendment
defined “engage in terrorist activity” and for the first time
identified several acts as part of a non-exhaustive list of
terrorist activities. 8 U.S.C. § 1182(a)(3)(B). In the years
that followed, and particularly after the 1993 World Trade
Center bombing, Congress expanded the anti-terrorism
provisions in the INA to fund counterterrorism measures
and bar noncitizens on terrorism-related grounds from
receiving asylum or withholding of removal. See Illegal
Immigration Reform and Immigrant Responsibility Act of
1996, Pub. L. No. 104-208, 110 Stat. 3009; Antiterrorism
and Effective Death Penalty Act of 1996, Pub. L. No. 104132, 110 Stat. 1214.
1 The term “noncitizen” substitutes the term “alien”
throughout this Petition. See Nasrallah v. Barr, 140 S. Ct. 1683,
1687 (2020); Maria Sacchetti, ICE, CBP to stop using ‘illegal
alien’ and ‘assimilation’ under new Biden administration order,
Wash. Post (Apr. 19, 2021), https://www.washingtonpost.com/
immigration/illegal-alien-assimilation/2021/04/19/9a2f878e-9ebc11eb-b7a8-014b14aeb9e4_story.html (discussing agency memos
directing use of more inclusive terms for immigrants).

6
Nearly twenty years ago, Congress enacted the
PATRIOT Act the month after the September 11, 2001
attacks, further amending the INA to include additional
terrorism-related inadmissibility grounds. See Uniting
and Strengthening America by Providing Appropriate
Tools Required to Intercept and Obstruct Terrorism
Act of 2001, Pub. L. No. 107-56, 115 Stat. 272 (PATRIOT
Act). The PATRIOT Act expanded the existing list of
terrorist activities under § 1182. It also amended the
definition of “terrorist organization” to include a category
for undesignated groups of two or more individuals
who “engage in terrorist activity,” referred to as “Tier
III” terrorist organizations. 8 U.S.C. § 1182(a)(3)(B)(vi)
(III). As noted above, “engage in terrorist activity” was
originally defined in 1990. Id. § 1182(a)(3)(B). Despite
other noteworthy amendments, the PATRIOT Act did not
significantly change the definition of “engage in terrorist
activity.” Pet. App. 35a; see also Amrollah discussion infra
Section II.
In late 2 0 02 , Cong ress created the National
Commission on Terrorist Attacks Upon the United
States, known as the 9/11 Commission. See Intelligence
Authorization Act for Fiscal Year 2003, Pub. L. No. 107306, 116 Stat. 2383 (2002). The 9/11 Commission identified
multiple instances where terrorists entered and remained
in the United States by exploiting then-existing asylum
laws. See generally 9/11 Commission, The 9/11 Commission
Report: Final Report of the National Commission on
Terrorist Attacks Upon the United States (2004). In
response, Congress passed the Emergency Supplemental
Appropriations Act for Defense, the Global War on
Terror, and Tsunami Relief of 2005, Pub. L. No. 109-13,
119 Stat. 231 (REAL ID Act), to, among other thing,

7
“unify terrorism-related grounds for inadmissibility and
removal.” H.R. Rep. No. 109-72 (2005). In its effort to
streamline deportation of terrorists, the REAL ID Act
added a ground of inadmissibility for noncitizens who have
“received military-type training . . . from or on behalf
of any organization that, at the time the training was
received, was a terrorist organization (as defined in [the
PATRIOT Act]).” 8 U.S.C. § 1182(a)(3)(B)(i)(VIII).
The INA, with the PATRIOT Act and REAL ID Act
amendments, serves as a broad statutory scheme allowing
the government to exclude noncitizens on terrorismrelated grounds, including material support, endorsement
of a terrorist organization, and solicitation of funds for
terrorist activity. 2 Id. §§ 1182(a)(3)(B)(i)(VII), (iv)(V)(VI). Yet among its vast provisions, Congress included
the short but clear phrase, “at the time,” which expressly
limits the statute’s otherwise expansive reach as it relates
to receipt of military-type training. Id. § 1182(a)(3)(B)(i)
(VIII). No other terrorism-related inadmissibility ground
contains the words “at the time,” indicating that Congress
purposely included them in § 1182(a)(3)(B)(i)(VIII).

2 See McAllister v. U.S. Att’y Gen., 444 F.3d 178, 191-92
(3d Cir. 2006) (Barry, J., concurring) (expressing alarm at the
government’s sweeping definitions of “terrorist activity” and
“terrorist organization”); In re S-K-, 23 I. & N. Dec. 936, 948-49
(BIA 2006) (Osuna, J., concurring) (discussing the “broad reach”
of the material support ground of inadmissibility).

8
B. Factual and Administrative Background
Born and raised in war-torn Afghanistan, Mohammad
Sharif Khalil joined Jamiat at age 15 during the Soviet
invasion of Afghanistan. Pl.’s First Am. Compl. ¶¶ 9-10,
ECF No. 31. Supporting groups like Jamiat was the
official U.S. policy under then-President Ronald Reagan.
Known as the “Reagan Doctrine,” the U.S. provided
funds, support, training, and weapons to Jamiat and
other anti-Soviet groups in Afghanistan and around the
globe. See Charles Krauthammer, The Reagan Doctrine,
Wash. Post (July 19, 1985), https://www.washingtonpost.
com/archive/politics/1985/07/19/the-reagan-doctrine/
b2a06583-46fd-41e5-b70d-c949dd3c50c2/ (“The Reagan
Doctrine, enunciated in the 1985 State of the Union
address, declares, quite simply, American support for
anticommunist revolution ‘on every continent from
Afghanistan to Nicaragua.’”). Like many Afghan youth,
Mr. Khalil fought with Jamiat against the Soviets after
being trained by U.S. forces. Pl.’s First Am. Compl. ¶ 11.
Mr. Khalil’s involvement with Jamiat ceased in the late
1980s at the end of the Soviet invasion.
Following the fall of the Soviet-supported Afghan
government in 1992, Jamiat was one of many groups vying
for power in Afghanistan. Jamiat joined the coalition
known as the United Islamic Front for the Salvation
of Afghanistan or “Northern Alliance.” The Northern
Alliance opposed the Islamic Emirate of Afghanistan,
commonly known as the Taliban. With the majority
of Afghanistan under Taliban control, Mr. Khalil was
targeted as a former member of Jamiat. Id. at ¶ 13. After
initially seeking refuge in Germany, on January 21, 2000,
Mr. Khalil entered the United States through Newark
International Airport and requested asylum. Id. at ¶ 16.

9
In his applications for asylum and for withholding of
removal, Mr. Khalil fully disclosed to the Immigration and
Naturalization Service (INS)3 that he “joined the [Jamiat]
at the age of 15 and became a fighter at 18” and “supported
the Jamiat in there [sic] resistance against the Communists
and there [sic] fighting against Hekmatyar and his Hezbi-Islami party.” Id. On March 30, 2000, the immigration
judge (IJ) granted Mr. Khalil’s application for asylum.
Id. at ¶ 17.4
Mr. Khalil filed his first Application to Register
Permanent Residence or Adjust Status w ith U.S.
Citizenship and Immigration Services (USCIS) on
December 3, 2001, four years before Congress passed
the REAL ID Act. Once granted, adjustment of status
permits noncitizens to travel more freely internationally,
receive financial aid, join certain branches of the U.S.
armed forces, and ultimately seek U.S. citizenship after
five years. Kira Monin et al., Refugees and Asylees in
the United States, Migration Pol’y Inst. (May 13, 2021),
https://www.migrationpolicy.org/article/refugees-andasylees-united-states-2021. Mr. Khalil again disclosed
his ties to Jamiat.
After nearly eight years with no explanation for
the delay, USCIS denied Mr. Khalil’s first application,
3 The INS existed at the time of Mr. Khalil’s asylum
proceedings. Congress created the Department of Homeland
Security (DHS) in November 2002 and USCIS in March 2003.
USCIS is an agency within DHS.
4 IJs are statutorily barred from granting asylum to
noncitizens who are found to be inadmissible on terrorism-related
grounds, such as “engaging in terrorist activity.” 8 U.S.C. § 1158(b)
(2)(A)(v); see also 8 U.S.C. § 1182(a)(3)(B)(i)(I).

10
claiming he was inadmissible under 8 U.S.C. § 1182(a)(3)
(B)(i)(I) for engaging in terrorist activity. On January 31,
2011, Mr. Khalil filed a second application. Pl.’s First Am.
Compl. ¶ 22. Another seven years later, on November 16,
2018, USCIS sent Mr. Khalil a Notice of Intent to Deny his
second application (the 2018 NOID). Pet. App. 37a-46a. The
2018 NOID asserted that Mr. Khalil was “inadmissible
under [§ 1182(a)(3)(B)(i)(I)] for having engaged in terrorist
activity, as defined in [§1182(a)(3)(B)(iii)(V)(b)] when,
as a Mujahedeen fighter, [he] used a rocket launcher
to endanger the safety of one or more individuals.” Id.
at 44a. It also claimed Mr. Khalil was inadmissible “as
defined by [§ 1182(a)(3)(B)(iv)(VI)] for having provided
material support to Jamiat Islami by working with [his]
uncle and by fighting with the organization.” Id. Mr. Khalil
timely submitted a response to the 2018 NOID, which
addressed each ground of denial.
On February 14, 2019, USCIS sent another NOID
regarding Mr. Khalil’s second application (the 2019
NOID). Id. at 47a-56a. The 2019 NOID included requests
for additional information and stated that “[w]hile USCIS
still intends to deny [Mr. Khalil’s] application, this
information will allow USCIS to better evaluate the
arguments you raised in your response to the [2018]
NOID.” Id. at 52a. On March 8, 2019, Mr. Khalil submitted
his response to the 2019 NOID, asserting, among other
arguments, that USCIS was collaterally estopped from
denying his application on its stated grounds because the
issue of his admissibility and involvement with Jamiat
was fully litigated at the asylum stage. See Amrollah v.
Napolitano, 710 F.3d 568, 571 (5th Cir. 2013) (applying
collateral estoppel to USCIS’s denial of adjustment of
status on terrorism-related inadmissibility grounds).

11
USCIS denied Mr. Khalil’s second application on March
21, 2019. Pet. App. 13a-31a. It reasserted the grounds of
inadmissibility from the denial of his first application and
the 2018 NOID (engaging in terrorist activity and material
support of terrorism), but in an attempt to circumvent Mr.
Khalil’s collateral estoppel argument, USCIS also added
a third ground: receipt of military-type training from a
terrorist organization pursuant to 8 U.S.C. § 1182(a)(3)
(B)(i)(VIII). Id. at 29a-30a. USCIS purportedly based
this new ground of inadmissibility on a statement in
the addendum to Khalil’s second application repeating
what he had previously disclosed during his 2000 asylum
proceeding (that he was a member of Jamiat in the 1980s
and received training from U.S. forces to fight the Soviets).
Id.; see also Pl.’s First Am. Compl. ¶¶ 30-31. USCIS
admitted as much in its denial when it acknowledged that
Mr. Khalil disclosed his involvement in Jamiat “in their
[sic] resistance against the Communists.” Pet. App. 16a.
Nevertheless, USCIS stated in its denial, “The fact that
the United States supported Mujahedeen fighting the
Soviet and Soviet-sponsored Afghan government does not
make the group you were a member of any less of a [Tier
III] terrorist organization. . . .” Id. at 27a. In other words,
USCIS disregarded the fact that Mr. Khalil received
“military-type training” (from the U.S.) two decades
before the REAL ID Act expressly created this terrorismrelated ground of inadmissibility and years before it
decided that Jamiat was a “terrorist organization” under
the Tier III definition.
C. Lower Court Proceedings
Mr. Khalil initially filed a Writ of Mandamus on
September 11, 2018, to challenge USCIS’s seven-year

12
delay of his second application.   On April 9, 2019, after
USCIS’s ultimate denial, Mr. Khalil filed his First
Amended Complaint seeking a declaration that USCIS’s
denial of the second application was unlawful and should
be set aside under the Administrative Procedure Act, 5
U.S.C. § 706(2)(A), because Respondents were collaterally
estopped from denying adjustment of status on all stated
grounds. See generally Pl.’s First Am. Compl.
Respondents moved to dismiss the complaint for
lack of jurisdiction under 8 U.S.C. § 1252(a)(2)(B)(ii).
Defs.’ Mot. to Dismiss 3, ECF No. 32. When the Ninth
Circuit decided a similar case while the motion to dismiss
was pending, Janjua v. Neufeld, 933 F.3d 1061 (9th Cir.
2019), the district court instructed the parties to submit
supplemental briefing on the collateral estoppel issue
raised by Mr. Khalil. The Ninth Circuit in Janjua held
that because the specific terrorism-related ground was
not created until after the noncitizen’s asylum hearing,
the issue was not “actually litigated” and collateral
estoppel did not apply. 933 F.3d at 1067-68. The Janjua
court created a split with the Fifth Circuit in Amrollah
v. Napolitano, 710 F.3d 568 (5th Cir. 2013). See discussion
infra Section II.
On January 21, 2020, the district court granted the
motion to dismiss, but not on the grounds that it lacked
jurisdiction. Rather, it concluded that under Janjua,
collateral estoppel did not preclude Respondents from
denying Mr. Khalil’s second application because the IJ
who previously granted Mr. Khalil asylum in 2000 could
not have considered grounds of inadmissibility that
were codified by the PATRIOT Act and REAL ID Act
after the asylum decision. Pet. App. 7a-11a. The district

13
court construed “terrorism-related activity” narrowly
and decided that because the Tier III definition was
not available at the time of Mr. Khalil’s asylum in 2000,
inadmissibility related to Jamiat’s Tier III designation was
not “actually litigated” during the asylum proceedings. Id.
at 9a-10a.
The Ninth Circuit affirmed the dismissal on March 12,
2021. Seemingly acknowledging that collateral estoppel
could apply to the first two grounds of inadmissibility,
the court of appeals pivoted and focused on the third
ground: receipt of military-type training under § 1182(a)
(3)(B)(i)(VIII). Id. at 4a (concluding, “even if the record
showed that the agency was estopped on some of the
other issues on appeal, it would not change the result as
to Khalil’s ‘military-type training’”). It held that collateral
estoppel did not apply to the military-type training ground
because the REAL ID Act was passed in 2005, after the
IJ decision granting Mr. Khalil’s asylum application in
2000. Id. at 3a. At the same time, the court of appeals
rejected Mr. Khalil’s argument that the REAL ID Act
cannot retroactively render him inadmissible because of
its “at the time” language; instead, it concluded simply
that “the REAL ID Act explicitly permits retroactivity”
based on the Act’s note stating that the amendments
apply to “acts and conditions constituting a ground for
inadmissibility . . . occurring or existing before, on, or
after [May 11, 2005].” Id. As a result, even though the
INA covered the same terrorism-related conduct for the
15 years preceding the REAL ID Act, the court of appeals
held that the military-type training ground could not have
been actually litigated in the asylum proceeding. Id.
This petition followed.

14
REASONS FOR GRANTING THE PETITION
In a results-driven decision, the Ninth Circuit
contradicted other judicial interpretations of the statutory
language “at the time,” exacerbated a circuit split, and
ignored long-standing rules of statutory construction.
The court of appeals’ interpretation—that under the
REAL ID Act, the government can retroactively deem
a noncitizen inadmissible for receiving military-type
training from a group that was not considered a terrorist
organization at the time of the training—is wrong. And
the consequences of its misinterpretation of this provision
of § 1182 necessitate this Court’s review.
I.

THE DECISION BELOW CONFLICTS WITH
JUDICIAL INTERPRETATIONS OF IDENTICAL
LANGUAGE.

As the Court is aware, when Congress uses identical
words throughout the same statute, they “are intended to
have the same meaning.” Dep’t of Revenue of Or. v. ACF
Indus., 510 U.S. 332, 342 (1994). The phrase “at the time” is
employed to mean “when” in other parts of § 1182. Because
courts have followed the plain meaning of “at the time” in
other § 1182 cases, the decision below conflicts with and
creates inconsistency in the law interpreting this language.
For example, 8 U.S.C. § 1182(a)(6)(E) sets forth a
ground of inadmissibility where a noncitizen smuggled
another noncitizen into the United States. Section 1182(a)
(6)(E)(iii) permits a waiver, however, when the person the
noncitizen smuggled was the noncitizen’s spouse or other
immediate relative. The waiver is further explained in
§ 1182(d)(11): “the Attorney General may, in his discretion
. . . waive application of [§ 1182(a)(6)(E)(i)] . . . if the alien

15
has [smuggled] only an individual who at the time of
such action was the alien’s [spouse or other immediate
relative] to enter the United States in violation of law.”
Id. § 1182(d)(11) (emphasis added). Federal courts and
the Board of Immigration Appeals hold that the waiver
only applies if the individual smuggled was a spouse or
other immediate relative when the smuggling occurred.
See, e.g., Moran v. Ashcroft, 395 F.3d 1089, 1090 (9th Cir.
2005) (“Because Moran and his wife were married after
he helped her enter the country illegally, he does not fall
within the exception to the alien smuggling provision
. . . .”), overruled on other grounds by Sanchez v. Holder,
560 F.3d 1028 (9th Cir. 2009); In re Farias-Mendoza, 21 I.
& N. Dec. 269, 282, 1997 BIA LEXIS 22, at *4 (BIA May
7, 1997) (“At the time the respondent assisted her current
husband in entering the United States in violation of law,
she was not married to him.”).
Likewise, § 1182(a)(6)(C)(ii)(II) provides that a
noncitizen is not inadmissible for making a false claim of
citizenship if his parents naturalized before he turned 16
and he “reasonably believed at the time of making such
representation that he [] was a citizen.” 8 U.S.C. § 1182(a)
(6)(C)(ii)(II) (emphasis added). Courts also interpret “at
the time” in this provision to mean “when.” See, e.g.,
Muratoski v. Holder, 622 F.3d 824, 828 (7th Cir. 2010)
(rejecting the noncitizen’s argument that he reasonably
believed he was a citizen at the time he obtained a
falsified passport and subsequently made a false claim of
citizenship); Adrien v. U.S. Att’y Gen., 194 F. App’x 748,
751 (11th Cir. 2006) (agreeing with the BIA that there was
no evidence the noncitizen’s “memory problems existed at
the time of his [IJ] hearing”). 5
5 The government’s position in this case is at odds with its
position on waivers for smuggling family members under § 1182(d)

16
T he Ni nt h C i r c u it ’s hold i ng con f l ic t s w it h
interpretations of the same language with the same
meaning. Because of the other holdings interpreting “at
the time” differently (and correctly), resolving the question
presented has implications for other provisions in § 1182
and related immigration and terrorism statutes. See, e.g.,
Intelligence Reform and Terrorism Prevention Act of
2004, 18 U.S.C. § 2339D (imposing criminal liability upon
a person who “knowingly receives military-type training
from or on behalf of any organization designated at the
time of the training [as a foreign terrorist organization]”)
(emphasis added).
II. THE DECISION BELOW BUILDS ON A N
EXISTING CIRCUIT SPLIT.
While the district court applied the Ninth Circuit’s
decision in Janjua v. Neufeld, the court of appeals’
decision below took it further, building on the Ninth and
Fifth Circuits’ split on collateral estoppel in asylum and
adjustment of status cases. Pet. App. 3a.
In Janjua, much like in this case, a noncitizen who
obtained asylum later sought adjustment of status. 933
F.3d at 1063. At the time of his asylum application, Janjua
disclosed his former involvement with the Muhair Qaumi
Movement (MQM), a political group in Pakistan. Id.
(11). In the latter, it does not retroactively deem a noncitizen’s
after-acquired spouse to be their spouse at the time of smuggling,
which makes sense because such an interpretation would run
afoul of the statute’s plain language. Same with its position on
false claims under § 1182(a)(6)(C)(ii)(II). These contradictory
interpretations of the same language violate many tenets of
statutory construction. See infra Section III.

17
During his subsequent adjustment of status proceedings,
Janjua argued that the government was collaterally
estopped from denying his application on the grounds that
he had provided material support to MQM, which later
qualified as a Tier III terrorist organization. Id. The Ninth
Circuit in Janjua first concluded that collateral estoppel
applies if a claim is “actually and necessarily litigated.”
Id. at 1065. The court considered an issue to be actually
litigated when it was “raised, contested, and submitted
for determination.” Id. (citing Restatement (Second) of
Judgments § 27, cmt. d (A m. L. Inst. 1982)). Because the
Tier III definition was not invented until after Janjua’s
asylum hearing, the court held that the issue was not
actually litigated, and thus, collateral estoppel did not
apply to the government’s ground for denial. Id. at 1067.
The Janjua court ignored that the definition of a Tier
III terrorist organization hinges on whether the group
“engaged in terrorist activity,” a term already defined by
the INA at the time of his asylum proceedings and which
Congress had not significantly changed in the PATRIOT
Act.
The Fifth Circuit in Amrollah v. Napolitano had
already considered facts nearly identical to Janjua.
Namely, the government denied an asylee’s application
for permanent resident status on the ground that he
engaged in terrorist activity by providing material
support to a Tier III terrorist organization. 710 F.3d
568, 571 (5th Cir. 2013). But in contrast to Janjua, the
Fifth Circuit held that the government was collaterally
estopped from raising this ground of inadmissibility
because the definition of “engage in terrorist activity”
under the existing statute was not “significantly different”
from the amended definition in the PATRIOT Act. Id.

18
at 573. The Fifth Circuit recognized that although the
PATRIOT Act and REAL ID Act amended the labels
applied to assess a noncitizen’s inadmissibility, they did
not materially affect the definitions of “engage in terrorist
activity” or “terrorist organization.” Id. at 571. The legal
analysis before and after the amendments is the same.
Consequently, Janjua is wrong about collateral estoppel
in the § 1182 context.
In this case, the district court found that Janjua
effectively barred Mr. Khalil’s collateral estoppel
argument, in part because it concluded that “the receipt
of military-style training from a Tier III organization was
not a basis for inadmissibility [and thus, could not have
been actually litigated] until the REAL ID Act became
law in May 2005.” Pet. App. 10a (“Janjua indicates that
whether Plaintiff was inadmissible for receiving militarytype training from a Tier III terrorist organization could
not have been actually litigated because any IJ could not
have considered inadmissibility on those grounds until
they were added to § 1182 in 2001 and 2005, respectively.”)
(cleaned up). But because the issue of whether Mr. Khalil
engaged in terrorist activity was actually litigated at the
asylum stage, the first two grounds of inadmissibility
(material support of terrorism and engaging in terrorist
activity) should have been barred by collateral estoppel.
See Amrollah, 710 F.3d at 571-73.
The Ninth Circuit also applied Janjua’s collateral
estoppel holding and then went a step further by concluding
that § 1182(a)(3)(B)(i)(VIII) applied retroactively to
military-type training received from a group that was
not considered a terrorist organization at the time of the
training. But unlike the district court, the court of appeals

19
appeared to recognize the similarity between the first two
grounds and focused its analysis on the third ground of
inadmissibility—military-type training. Pet. App. 3a-4a.
The court effectively took the bait that USCIS dropped
when it belatedly added military-type training to its final
denial. In conjunction with the incongruence caused by
the Janjua-Amrollah split, the Ninth Circuit’s decision
below leaves the government free to turn its back on wartime allies by arbitrarily labeling them as terrorists and
denying them the ability to adjust status.
III. THE DECISION BELOW IS WRONG.
Multiple principles of statutory interpretation
reveal that the Ninth Circuit’s decision is based on an
erroneous reading of 8 U.S.C. § 1182(a)(3)(B)(i)(VIII) and
a misunderstanding of retroactivity in the REAL ID Act.
1. The court of appeals ignored the plain language
of the military-type training provision. In statutory
construction cases, courts must first “determine whether
the language at issue has a plain and unambiguous
meaning with regard to the particular dispute in the
case.” Barnhart v. Sigmon Coal Co., 534 U.S. 438, 450
(2002) (concluding that “related person” was unambiguous
in the Coal Act). If it does, courts are obliged to “apply
the statute according to its terms.” Carcieri v. Salazar,
555 U.S. 379, 387 (2009) (applying the ordinary meaning
of the word “now” in the Indian Reorganization Act);
see also Barber v. Gonzales, 347 U.S. 637, 643 (1954)
(“In the absence of explicit language showing a contrary
congressional intent, we must give technical words in
deportation statutes their usual technical meaning.”).
“[F]or where, as here, the statute’s language is plain, ‘the

20
sole function of the courts is to enforce it according to its
terms.’” United States v. Ron Pair Enters., 489 U.S. 235,
241 (1989) (quoting Caminetti v. United States, 242 U.S.
470, 485 (1917)).
The key statutory language at issue in this case
is “at the time.” 8 U.S.C. § 1182(a)(3)(B)(i)(VIII). The
meaning of this phrase has significant implications for
Mr. Khalil and countless other noncitizens. MerriamWebster defines the phrase “at the time of” to mean
“when (something) happened.” At the time of (something),
M erriam-Webster Dictionary, https://www.merriamwebster.com/dictionary/at% 20the%20time%20of%20
%28something%29 (last visited June 14, 2021). Similarly,
the leading dictionary defining words and idioms for
English learners defines “at the time” to mean “at a
particular moment or period in the past when something
happened, especially when the situation is very different
now.” At the time, Longman Dictionary of Contemp. Eng.,
https://www.ldoceonline.com/dictionary/at-the-time (last
visited June 14, 2021). And Garner’s Modern English
Usage describes the phrases “at the time (that)” and “at
the time (when)” as “invariably verbose for when.” At the
time (that); at the time (when), Garner’s Modern English
Usage (4th ed. 2016) (emphasis in original).
Section 1182(a)(3)(B)(i)(VIII) states that the terrorist
activities inadmissibility ground includes “military-type
training . . . from or on behalf of any organization that,
at the time the training was received, was a terrorist
organization . . . .” 8 U.S.C. § 1182(a)(3)(B)(i)(VIII).
Interpreting the statute’s language by its ordinary and
common meaning, a noncitizen is inadmissible for terrorist
activities if he received military-type training from an

21
organization that was considered a terrorist organization
when he was receiving the training. See Perrin v. United
States, 444 U.S. 37, 42 (1979) (beginning analysis with the
ordinary meaning of the term “bribery”). The meaning
of “at the time” is plain and unambiguous. 6 Indeed,
this Court frequently uses the phrase while discussing
statutory construction; e.g., “It’s a fundamental canon
of statutory construction that words generally should
be interpreted as taking their ordinary meaning at the
time Congress enacted the statute.” New Prime Inc. v.
Oliveira, 139 S. Ct. 532, 539 (2019) (cleaned up); see also
Bostock v. Clayton Cty., 140 S. Ct. 1731, 1738 (2020) (“This
Court normally interprets a statute in accord with the
ordinary public meaning of its terms at the time of its
enactment.”).7 The Ninth Circuit essentially wrote “at the
time” out of this statute.
6 Because “at the time” is unambiguous, courts need not
consider the legislative history. Hughes Aircraft Co. v. Jacobson,
525 U.S. 432, 438 (1999) (explaining that its statutory construction
“analysis begins with the language of the statute” and “where the
statutory language provides a clear answer, it ends there as well”).
But even if they did, the legislative history does not address the
meaning of “at the time” in § 1182(a)(3)(B)(i)(VIII). To the extent
the Congressional Record offers any insight into Congress’s intent,
it indicates that Congress sought to stop terrorists like those
who exploited asylum laws to enter the U.S. and commit the 9/11
attacks, not noncitizens who fought alongside the U.S. in armed
conflicts in the 1980s. See 151 Cong. Rec. S3775 (2005).
7 Likewise, Article II, Section 1 of the Constitution, known
as the “Eligibility Clause,” contains an exemption that permitted
persons (i.e., founders and men who served in the Revolutionary
War) not born in the U.S. to become president so long as they were
citizens “at the time” the Constitution was ratified. U.S Const. art.
II, § 1 (“No person except a natural born Citizen, or a Citizen of
the United States, at the time of the Adoption of this Constitution,
shall be eligible to the Office of President.”).

22
As discussed supra, USCIS claimed that beginning
in the late 1980s, Jamiat engaged in activities that render
it a Tier III terrorist organization. Pet. App. 18a-21a. But
Mr. Khalil did not receive military-type training at that
time. Id. at 17a. Rather, as the government conceded, he
received military-type training in the early to mid-1980s,
when Jamiat was not considered a terrorist organization
and would not have qualified as a Tier III terrorist
organization. See id. The Ninth Circuit, by concluding
that § 1182 applies to Mr. Khalil’s receipt of militarytype training, ignored the plain meaning of the statute
requiring that the group be a terrorist organization “at
the time” of the training.
2. The court of appeals’ interpretation also renders the
statutory language superfluous. It is a basic interpretative
canon that statutes should be read “so that effect is given
to all [] provisions, so that no part will be inoperative
or superfluous, void or insignificant.” Rubin v. Islamic
Republic of Iran, 138 S. Ct. 816, 824 (2018). Similarly,
because identical phrases are treated as having the same
meaning in a statute, rendering a phrase surplusage in
one provision has consequences for other provisions. Pa.
Dep’t of Pub. Welfare v. Davenport, 495 U.S. 552, 561-62
(1990) (“Our cases express a deep reluctance to interpret
a statutory provision so as to render superfluous other
provisions in the same enactment.”). And courts should
presume that “Congress acts intentionally and purposely
when it includes particular language in one section of
a statute but omits it in another.” BFP v. Resol. Tr. Corp.,
511 U.S. 531, 537 (1994).
The court of appeals in this case failed to apply these
established tenets of statutory construction. It treated “at

23
the time” as superfluous. There is no need for Congress
to specify that an organization was considered a terrorist
organization at the time the noncitizen received the
military-type training if the government need not make
such a showing to deem a noncitizen inadmissible under
§ 1182. Put another way, if all the government must show
is that at some point the organization was a terrorist
organization under § 1182(a)(3)(B)(vi), the words “at the
time” have no meaning. This interpretation is not only
wrong but has the added risk of rendering the same
language superfluous in other provisions of § 1182. See,
e.g., 8 U.S.C. §§ 1182(a)(6)(C) (using the phrase “at the
time”), (a)(8) (same).
The Ninth Circuit’s decision also implies that
Congress’s inclusion of “at the time” in § 1182(a)(3)(B)
(i)(VIII) was a thoughtless technicality, even though
Congress plainly omitted those words in all other
terrorism-related provisions of §1182(a)(3). By amending
this part of the INA to include military-type training but
with a qualification—at the time—courts must presume
that Congress added the language intentionally. Based
on its dissimilarity with those other terrorism-related
grounds of inadmissibility, it is apparent Congress
intended to protect war-time allies who received militarytype training from and alongside U.S. troops in conflicts
around the world.
3. The court of appeals disregarded the centuries-old
presumption against retroactivity of statutes. See Kaiser
Aluminum & Chem. Corp. v. Bonjorno, 494 U.S. 827,
842-44, 855-56 (1990) (Scalia, J., concurring) (explaining
that statutes must not be applied retroactively unless
Congress clearly states otherwise dates back to “the

24
beginning of the Republic and indeed since the early
days of the common law”); Soc’y for the Propagation of
the Gospel v. Wheeler, 2 Gall. 105, 22 F. Cas. 756, F. Cas.
No. 13156 (C.C.N.H. 1814) (Story, J.) (quoting the New
Hampshire bill of rights’ declaration that “retrospective
laws are highly injurious, oppressive and unjust”). This
legal doctrine exemplifies the considerations of fair notice
and reasonable reliance provided by both the Ex Post
Facto Clause and the Due Process Clause. Ventura v.
Sessions, 907 F.3d 306, 313 (5th Cir. 2018); see also INS
v. St. Cyr, 533 U.S. 289, 324 (2001) (“As our cases make
clear, the presumption against retroactivity applies far
beyond the confines of the criminal law.”), superseded
by statute on other grounds, REAL ID Act of 2005, 119
Stat. 310, 8 U.S.C. § 1252(a)(5). And it reflects the concern
that lawmakers’ “responsivity to political pressures poses
a risk that [they] may be tempted to use retroactive
legislation as a means of retribution against unpopular
groups or individuals.” Landgraf v. Usi Film Prods.,
511 U.S. 244, 267 (1994). As a result, “the legal effect of
conduct should ordinarily be assessed under the law that
existed when the conduct took place.” Id. at 265.
There is no dispute that this case “implicates a
federal statute enacted after the events in the suit.” Id.
Accordingly, the retroactivity question here presents
itself in two ways. The first is simple and surely calls for
a “yes” answer: Does § 1182(a)(3)(B)(i)(VIII) retroactively
apply to military-type training taking place before the
Act’s May 2005 passage? The second, on the other hand,
is not so clear: Does § 1182(a)(3)(B)(i)(VIII) retroactively
deem a noncitizen inadmissible for receiving military-type
training from a terrorist organization when the group
was not considered a terrorist organization at the time of

25
the training? To answer this second question, the lower
courts should have applied Landgraf, which announced
the current standard for retroactivity with a two-part
inquiry. Id. at 280-81. Initially, courts must ask “whether
Congress has expressly prescribed the statute’s proper
reach.” Id. at 280. “Cases where this Court has found truly
‘retroactive’ effect adequately authorized by statute have
involved statutory language that was so clear that it could
sustain only one interpretation.” St. Cyr, 533 U.S. at 316-17
(quoting Lindh v. Murphy, 521 U.S. 320, 328 n.4 (1997)). If
the text expressly and unambiguously states that it applies
to preenactment conduct, the inquiry ends and courts
should apply the law retroactively as stated. Landgraf, 511
U.S. at 281. In the absence of express language, courts
next determine if the statute has a retroactive effect, “i.e.,
whether it would impair rights a party possessed when
he acted, increase a party’s liability for past conduct, or
impose new duties with respect to transactions already
completed.” Id. If the answer is yes, courts apply the
traditional presumption against retroactivity “absent
clear congressional intent favoring such a result.” Id.; see
also Vartelas v. Holder, 566 U.S. 257, 266 (2012) (applying
the presumption against retroactivity because IIRIRA
attached a new disability to the noncitizen by denying
him reentry).
As noted, the Ninth Circuit is correct that the REAL
ID Act expressly provides it “shall apply to . . . acts
and conditions constituting a ground for inadmissibility
. . . occurring or existing before, on, or after [May 11,
2005].” 8 U.S.C. § 1182 note; Pet. App. 3a. This means that
the provision applies to conduct taking place before its
enactment. As a straightforward example of the REAL ID
Act’s retroactivity, a noncitizen seeking admission today

26
who received military-type training from Al-Qaeda in
2003 would be inadmissible under § 1182(a)(3)(B)(i)(VIII)
because Al-Qaeda was considered a terrorist organization
in 2003 (designated in 1997).
The court of appeals incorrectly concluded, however,
that retroactivity also means the statute applies to a
noncitizen who received military-type training from a
group that was not a terrorist organization at the time
of the training but was later deemed to be one, whether
designated or undesignated. Pet. App. 3a-4a. Indeed,
the Ninth Circuit’s confusion over retroactivity in this
provision was apparent during oral argument, when Judge
Tallman said:
To me, your client is in a very sympathetic
position. I don’t understand why somebody—I
mean, he was our terrorist. . . . He was our
guy. And now Congress is saying well maybe
then but retroactively not now. I don’t know
how to get around that the statutory change is
applicable before, now, and after.
Oral argument at 10:42, Khalil v. Cissna, No. 20-55323, 2021
U.S. App. LEXIS 7298 (9th Cir. Mar. 3, 2021) https://www.
ca9.uscourts.gov/media/view.php?pk_id=0000036505.
Contrary to the court of appeals’ holding, the provision’s
“at the time” language leads to the opposite conclusion.
Because the statute does not expressly retroactively
deem groups as terrorist organizations in § 1182(a)(3)
(B)(i)(VIII) and because the congressional history gives
no clear guidance, the traditional presumption against
retroactivity must control. Thus, to hold that a noncitizen
is inadmissible under § 1182(a)(3)(B)(i)(VIII), the group

27
from which he received military-type training must have
been a terrorist organization at the time of the training.
4. Similarly, the court of appeals’ interpretation
violates the immigration rule of lenity. See Brian G. Slocum,
The Immigration Rule of Lenity and Chevron Deference,
17 Geo. Immigr. L.J. 515, 519-20 (2003) (discussing this
Court’s history of construing immigration statutes
narrowly in favor of noncitizens). 8 If, after considering
the plain language and legislative history, there remains
any doubt about the meaning of the statute, courts must
construe its language in favor of the noncitizen. INS v.
Cardoza-Fonseca, 480 U.S. 421, 449 (1987) (recognizing
the “longstanding principle of construing any lingering
ambiguities in deportation statutes in favor of the
[noncitizen]”). This Court held in Fong Haw Tan v. Phelan
that because “deportation is a drastic measure . . . we
will not assume that Congress meant to trench on [the
noncitizen’s] freedom beyond that which is required by the
narrowest of several possible meanings of the words used.”
333 U.S. 6, 10 (1948); see also Sessions v. Dimaya, 138 S.
Ct. 1204, 1213 (2018) (explaining that because deportation
is “a particularly severe penalty” and often “intimately
related to the criminal process,” courts should apply the
standard for criminal laws to immigration laws that make
a noncitizen deportable).

8 Because “at the time” in § 1182(a)(3)(B)(i)(VIII) is
unambiguous, the government’s interpretation is not entitled
to deference under Chevron, U.S.A., Inc. v. Natural Resources
Defense Council, Inc., 467 U.S. 837, 842-43 (1984).

28
DHS’s determination that Mr. Khalil is inadmissible
under § 1182(a)(3) is a similarly drastic outcome that
restricts his immigration status and leaves him vulnerable
to deportation, a severe penalty authorized by 8 U.S.C.
§ 1227 and § 1229a. As a statute seeking to render
noncitizens inadmissible and immediately removable on
terrorism-related grounds, the lower courts should have
construed any potential retroactive application of § 1182(a)
(3)(B)(i)(VIII) in Mr. Khalil’s favor. See H.R. Rep. No.
109-72 (2005).
IV. THE DECISION BELOW BETRAYS WAR-TIME
ALLIES AND MAKES AMERICA LESS SAFE.
The Ninth Circuit’s decision now stands as the
authority dictating when the § 1182 military-type training
ground of inadmissibility applies to noncitizens. And
its holding, which renders the provision’s “at the time”
language meaningless, has precisely the implications that
the panel openly lamented during oral argument:
I’m also worried that, boy if our adversaries got
hold of this, it would be great publicity for them
to say if you fight for the United States at the
United States’ request with weapons furnished
by the United States, the United States will
betray you. It will treat you as a terrorist. . . .
It seems to me we’re constantly using cats’
paws, as most big countries do, to fight our
battles for us. And, uh, gosh what a message to
people like the Montagnards in Vietnam years
ago and the Kurds and the Anticommunists in
Afghanistan in the ’70s and ’80s.

29
Oral argument at 28:04, Khalil v. Cissna, No. 2055323, 2021 U.S. App. LEXIS 7298 (9th Cir. Mar.
3, 2021), https://w w w.ca9.uscourts.gov/media/view.
php?pk_id=0000036505. Thus, while the Ninth Circuit’s
interpretation of the statute was incorrect, the panel’s
statements highlight the important foreign policy issue
that affects individuals like Mr. Khalil as well as the next
generation of U.S.-supported “freedom fighters”—groups
and individuals in the Middle East that fought alongside
the U.S. in the War on Terror. See Stephen M. Shapiro
et al., Supreme Court Practice § 4.13 (11th ed. 2019)
(“Significant federal statutory questions implicating
foreign affairs may give rise to review on certiorari.”).
Indeed, the U.S. has for decades relied on groups to fight
for democratic interests in countries around the globe.
Christian Parenti, America’s Jihad: A History of Origins,
28 (3) Soc. Just. 31, 31-33 (2001) (discussing the United
States’ support and funding of groups to fight communism
during the Soviet-Afghan War). And there are no greater
examples in the last 50 years of the U.S. government
receiving support from allied militia groups than those in
Afghanistan and Iraq. Jamiat is just one such ally.
Likewise, this issue keeps coming to the forefront as
it relates to our country’s more recent coalitions in the
Middle East. In 2007, a year before Congress passed the
Refugee Crisis in Iraq Act, the House Subcommittee on
the Middle East and South Asia discussed the United
States’ obligation to support Iraqi refugees who served
U.S. forces: “The people who put their lives and lives of
their families on the line by assisting the United States
Government, our armed forces and our coalition partners
[in the War on Terror], must not be abandoned in their
hour of need.” Iraqi Volunteers, Iraqi Refugees: What is

30
America’s Obligation: Hearing Before the H. Subcomm.
on the Middle E. and S. Asia, Comm. on Foreign Affs.,
110th Cong. 3 (2007) (statement of Rep. Gary Ackerman,
Chairman, H. Subcomm. on the Middle E. and S. Asia).
This dilemma has returned in full force again in 2021, with
the U.S. withdrawing from Afghanistan and evacuating
war-time allies who served alongside our troops, thereby
putting those allies in imminent danger and requiring
them to seek refuge. See Jonathan Landay and Idrees
Ali, U.S. to start evacuating some under-threat Afghan
visa applicants, Reuters (July 14, 2021), https://www.
reuters.com/world/exclusive-us-expected-announcestart-evacuation-afghan-visa-applicants-2021-07-14/
(discussing Operation Allies Refuge). Congressional and
executive efforts to support those who assisted us in the
War on Terror reflect the longstanding American interest
in maintaining credibility abroad and “making good on our
obligation to help [our war-time allies].” Interview with
Antony J. Blinken, U.S. Sec’y of State, in Brussels, Belg.,
U.S. Dep’t of State (June 13, 2021), https://www.state.gov/
secretary-antony-j-blinken-on-cnns-state-of-the-unionwith-dana-bash/. USCIS’s denial, the Ninth Circuit’s
interpretation of § 1182, and the ambiguity created by its
ruling undermine those efforts and ignore our obligations
to these allies.9 See Jenna Krajeski, A victim of terrorism
9 Moreover, to deem noncitizens inadmissible for receipt of
military-type training from a “terrorist organization”—when the
group was not a terrorist organization at the time—undermines
the executive’s constitutional power to set U.S. foreign policy
and recognize coalitions abroad (such as the Reagan Doctrine).
See United States v. Curtiss-Wright Exp. Corp., 299 U.S. 304,
319 (1936) (“In this vast external realm, with its important,
complicated, delicate and manifold problems, the President alone
has the power to speak or listen as a representative of the nation.”).

31
faces deportation for helping terrorists, New Yorker
(June 12, 2019), https://www.newyorker.com/news/newsdesk/a-victim-of-terrorism-faces-deportation-for-helpingterrorists (noting the case of an Iraqi translator for the
U.S. military who was denied a green card based on his
membership in the Kurdish Democratic Party because it
was recently categorized as an “undesignated terrorist
group”).
A final glaring conundrum with the government’s
position in this case is that it seeks to label Mr. Khalil
inadmissible as a terrorist but has claimed that it will
not seek to remove him or revoke his asylum status.
More broadly, based on the Ninth Circuit’s interpretation
of § 1182(a)(3), the government may deny noncitizens
adjustment of status on terrorism-related inadmissibility
grounds but keep those “terrorists” in the country as
asylees—precisely what the REAL ID Act seeks to
prevent. This interpretation requires review because
it violates established rules of statutory interpretation,
exacerbates a circuit split, betrays allies seeking refuge,
and perhaps most importantly, makes America less safe.
Such an outcome undermines the purpose of the REAL
ID Act.

32
CONCLUSION
In reflecting on the government’s insistence that Mr.
Khalil is inadmissible after his years of fighting alongside
the United States, the panel below observed, “What a
message.” The question presented here asks whether this
is truly the message that Congress intended to send when
it passed the REAL ID Act.
This Court should grant the petition for a writ of
certiorari.
			Respectfully submitted,
K athryn H. Brady
Counsel of Record
A llie J. Hallmark
Franchel D. Daniel
Charles D. Swift, Director
Constitutional Law Center
for Muslims in A merica
100 North Central Expressway,
Suite 1010
Richardson, TX 75080
(972) 914-2507
kbrady@clcma.org
Counsel for Petitioner

APPENDIX

1a
APPENDIX A — Appendix
OPINIONAOF THE UNITED
STATES COURT OF APPEALS FOR THE NINTH
CIRCUIT, FILED MARCH 12, 2021
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 20-55323
MOHAMMAD SHARIF KHALIL,
Plaintiff-Appellant,
v.
L. FRANCIS CISSNA, IN HIS CAPACITY
AS DIRECTOR OF U.S. CITIZENSHIP AND
IMMIGRATION SERVICES; et al.,
Defendants-Appellees.
Appeal from the United States District Court
for the Central District of California
Dolly M. Gee, District Judge, Presiding
March 3, 2021, Argued and Submitted,
Pasadena, California
March 12, 2021, Filed
Before: KLEINFELD, TALLMAN, and OWENS, Circuit
Judges.

2a
Appendix A
MEMORANDUM*
Mohammad Sharif Khalil appeals from the district
court’s judgment granting United States Citizenship and
Immigration Services’ (“USCIS”) motion to dismiss. As
the parties are familiar with the facts, we do not recount
them here. We have jurisdiction under 28 U.S.C. § 1291,
and we affirm.
As a threshold matter, we “[a]ssum[e] without deciding”
that we have jurisdiction to review this appeal. See, e.g.,
Janjua v. Neufeld, 933 F.3d 1061, 1062 (9th Cir. 2019). Thus,
we need not decide whether the agency is correct that its
decision was discretionary and therefore foreclosed from
judicial review under 8 U.S.C. § 1252(a)(2)(B)(ii).
Khalil argues that USCIS was estopped from finding
him inadmissible in 2019 because, by granting him
asylum in 2000, the agency had “actually and necessarily”
decided he was not “engaged in a terrorist activity.” See
8 U.S.C. § 1182(a)(3)(B)(i). Khalil further contends that
the intervening changes in the law during that 19-year
period did not sufficiently alter the terrorism-related
grounds for inadmissibility to undermine his ability to
assert collateral estoppel.
We disagree. In 2005, Congress passed the REAL
ID Act, which rendered inadmissible any noncitizen who
“received military-type training . . . from or on behalf
* This disposition is not appropriate for publication and is not
precedent except as provided by Ninth Circuit Rule 36-3.

3a
Appendix A
of any organization that, at the time the training was
received, was a terrorist organization.” Pub. L. No. 109-13,
§ 103(a), 119 Stat. 307 (May 11, 2005) (codified as amended
at 8 U.S.C. § 1182(a)(3)(B)(i)(VIII)). Receiving “militarytype training” from a “terrorist organization” was thus
an entirely new ground for inadmissibility that did not
exist when Khalil received asylum in 2000. For issue
preclusion to apply, an issue must have been “identical in
both proceedings” and “actually litigated and decided in
the prior proceedings.” Janjua, 933 F.3d at 1065 (citations
omitted). “[A]n issue was actually litigated only if it was
raised, contested, and submitted for determination in the
prior adjudication.” Id. at 1062. Khalil’s inadmissibility
for receiving “military-type training” from a terrorist
organization could not have been “actually litigated and
decided” in 2000, as “military-type training” was not a
ground for inadmissibility at the time. The fact that this
provision also referenced other changes in the law, see
USA PATRIOT Act of 2001, Pub. L. No. 107-56, § 411,
115 Stat. 347-48 (Oct. 26, 2001) (codified as amended at 8
U.S.C. § 1182(a)(3)(B)(vi)(III)) (expanding the definition
of “terrorist organization” to include the “Tier III”
category), does not change this basic fact.
Khalil’s primary argument is that this new provision
cannot be applied retroactively to him. But the REAL
ID Act explicitly permits retroactivity under these
circumstances. Pub. L. No. 109-13, § 103(d), 119 Stat. 30809 (May 11, 2005) (codified as amended at 8 U.S.C. § 1182
(note)) (stating that the REAL ID Act’s amendments “shall
apply to . . . acts and conditions constituting a ground for
inadmissibility . . . occurring or existing before, on, or
after [May 11, 2005]”).

4a
Appendix A
Finally, the district court did not abuse its discretion
when it denied Khalil’s request for limited factual
discovery to establish “with certainty” whether the
terrorism-related grounds for inadmissibility were
“actually litigated” in his asylum proceedings. Because
the “military-type training” ground did not exist until
2005, the issue could not have been “actually litigated” in
2000. Thus, even if the record showed that the agency was
estopped on some of the other issues on appeal, it could not
change the result as to Khalil’s “military-type training.”
Like the district court, we are “not unsympathetic
to [Khalil’s] predicament as there are many equities that
favor his cause.” For the above reasons, however, we have
no choice but to affirm.
AFFIRMED.

5a
B THE UNITED
APPENDIX B —Appendix
ORDER OF
STATES DISTRICT COURT FOR THE CENTRAL
DISTRICT OF CALIFORNIA, FILED
JANUARY 21, 2020
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CV 18-7903-DMG (KSx)
MOHAMMAD SHARIF KHALIL,
v.
KEVIN MCALEENAN, et al.
January 21, 2020, Decided
January 21, 2020, Filed
Present: The Honorable DOLLY M. GEE,
UNITED STATES DISTRICT JUDGE.
CIVIL MINUTES—GENERAL
P r o c e e d i n g s: I N CH A M BER S - OR DER R E
DEFENDANTS’ MOTION TO DISMISS [32]
After Defendants filed a Motion to Dismiss (“MTD”)
Plaintiff’s First Amended Complaint on May 9, 2019 [Doc.
# 32], the Court issued an Order on September 18, 2019
requesting supplemental briefing concerning a Ninth
Circuit decision, Janjua v. Neufeld, 933 F.3d 1061 (9th
Cir. 2019), that was published after the parties completed

6a
Appendix B
their initial briefing on the MTD.1 [Doc. # 36.] The parties
have since submitted their supplemental briefs. [Doc. ##
37 (“Defs.’ Suppl. Br.”), 38 (“Pl.’s Suppl. Br.”).] For the
following reasons, the Court GRANTS Defendants’ MTD.
I.
THE COURT WILL NOT RECONSIDER
ITS RULING ON ITS JURISDICTION TO
DECIDE THIS MATTER
As an initial matter, Defendants’ supplemental brief
exceeds the scope of the issue that the Court ordered
the parties to brief. Defendants submitted briefing on
Janjua’s impact on this action, but they also reiterated
their MTD’s principal argument—that USCIS’ decision
to deny Plaintiff’s application to adjust status as a matter
of discretion renders the denial judicially unreviewable.
Defs.’ Suppl. Br. at 5-6.
The request for supplemental briefing on Janjua’s
effect on this case was not an invitation for a de facto motion
for reconsideration of the Court’s prior jurisdictional
ruling. Defendants have already had ample opportunity to
brief the issue of the Court’s jurisdiction to hear this case
and, as stated in the September 18 Order, have not shown
that the Court lacks jurisdiction to decide whether USCIS
is estopped from denying Plaintiff’s application. [Doc. #
36 at 5-6.] The Court shall not disturb that conclusion now.
1. The factual and procedural background relevant to the
MTD is set forth in the Court’s September 18 Order.

7a
Appendix B
II.
THE ISSUES ON WHICH DEFENDANTS
BASED THEIR DENIAL OF PLAINTIFF’S
APPLICATION WERE NOT “ACTUALLY
LITIGATED” UNDER JANJUA
Defendants argue that collateral estoppel does not
preclude them from denying Plaintiff’s application to
adjust status because the Immigration Judge (“IJ”) who
granted Plaintiff asylum could not have considered certain
grounds for inadmissibility that were codified by the USA
PATRIOT Act and REAL ID Act after the IJ made his
asylum decision. 2
Plaintiff responds that, because the pre-and postPATRIOT Act versions of 8 U.S.C section 1182 (the statute
governing inadmissibility) include similar definitions
of “terrorist activity,” Plaintiff could not have received
asylum “unless the IJ first determined that the applicant
had not engaged in terrorist activity.” Pl.’s Opp. at 4.
Plaintiff’s citations in support of this argument, however,
focus on whether the issue of an asylum seeker’s terrorist
activity was necessarily or impliedly decided in his asylum
proceedings. See id. at 3-4 (citing (“Accordingly, before
2. As set out in the Court’s September 18 Order, the IJ granted
Plaintiff asylum in March 2000. Federal law did not recognize the
provision of support to a Tier III terrorist organization as a basis
for inadmissibly until President Bush signed into law the USA
PATRIOT Act in October 2001. Similarly, the receipt of militarystyle training from a Tier III organization was not a basis for
inadmissibility until the REAL ID Act became law in May 2005.

8a
Appendix B
the IJ could grant Khan’s application for asylum he was
required to determine that Khan had not engaged in a
terrorist activity.”) and Islam v. U.S. Dep’t of Homeland
Sec., 136 F. Supp. 3d 1088, 1092 (N.D. Cal. 2015) (“Because
the IJ was statutorily barred from granting Islam
asylum if he was found to have participated in terrorist
activity, that issue was necessarily decided when the
IJ did in fact grant Islam asylum.”)). As Janjua makes
clear, however, whether or not an issue was necessarily
decided in a previous proceeding, collateral estoppel does
not apply unless that issue was also actually litigated in
that proceeding. Janjua, 933 F.3d at 1066 (distinguishing
the two elements of collateral estoppel). The latter
requirement is the focus of Janjua’s discussion and the
Court’s request for supplemental briefing.
To satisfy the “actually litigated” requirement,
Plaintiff must show that the “question, issue, or fact”
that underlies Defendants’ denial of Plaintiff’s application
to adjust status, Oyeniran v. Holder, 672 F.3d 800, 806
(9th Cir. 2012), was “raised, contested, and submitted for
determination” before the IJ in the asylum proceedings.
Janjua, 933 F.3d at 1066.
The parties have differing conceptions of the pertinent
“question, issue, or fact” to which collateral estoppel may
apply in this context. Defendants define the questions
or issues narrowly—they argue that the questions of
whether Plaintiff was inadmissible due to “his provision
of material support to, or receipt of military training
from, a Tier III terrorist organization” could not have
been actually litigated in Plaintiff’s asylum proceeding
because neither activity was a basis for inadmissibility

9a
Appendix B
when Plaintiff received asylum. Defs.’ Suppl. Br. at 4;
see also First Amended Complaint [Doc. # 31], Ex. D
(“Final USCIS Decision”) at 6 (concluding that Plaintiff
is inadmissible for “having engaged in terrorist activity,”
having “provided material support to” a Tier III terrorist
organization, and “having received military-type training
from” a Tier III terrorist organization). Plaintiff, on the
other hand, takes a broader view—he alleges that the
issue of his “terrorism-related activity,” writ large, was
actually litigated before the IJ because he fully disclosed
his affiliation with Jamiat-i-Islami during his asylum
proceedings. Pl.’s Suppl. Br. at 5.
Janjua is more consistent with Defendants’ narrower
view. There, the Ninth Circuit examined whether the
plaintiff’s “terrorism-related inadmissibility was actually
litigated” in the prior proceedings by looking at whether
certain, more narrowly defined, questions were “raised,
contested, and submitted for determination” before the
IJ. Janjua, 933 F.3d at 1067. These questions included
whether the organization with which the plaintiff was
affiliated “qualifie[d] as a terrorist organization,”
whether the plaintiff “engaged in terrorist activity and
was inadmissible as a result,” and whether the plaintiff’s
“support for the [the organization] would make him
inadmissible.” Id. at 1067-68. The court held that it
“ma[de] sense” that these questions were not raised or
contested in the previous proceedings because these
bases for inadmissibility “did not exist at the time of the
hearing.” 3 Id.
3. Janjua also discussed the Ninth Circuit’s previous
decision in Paulo v. Holder, 669 F.3d 911, 917 (9th Cir. 2011). In

10a
Appendix B
Therefore, even assuming Plaintiff is correct that,
as a factual matter, he made his connections to Jamiat-iIslami known to the IJ in his asylum proceedings, Janjua
indicates that the “specific issues,” id. at 1068, of whether
Plaintiff was inadmissible for providing material support
to, or receiving military training from, a Tier III terrorist
organization could not have been actually litigated because
any IJ reviewing Plaintiff’s asylum application could not
have considered his potential inadmissibility on those
grounds until they were added to section 1182 in 2001 and
2005, respectively. See id. at 1068. The Court agrees with
Plaintiff that Janjua cannot be read to bar all collateral
distinguishing Paulo, Janjua suggested that collateral estoppel
may still apply if the government merely advances a “new
argument” for ineligibility for an immigration benefit, as opposed
to raising a new issue that renders an application ineligible.
Plaintiff does not address Paulo or Janjua’s discussion of it,
but the Court determines that Paulo is distinguishable, just as
it was in Janjua. In Paulo, the government raised an argument
against the plaintiff’s eligibility for an immigration benefit that
it could have raised in a prior proceeding, but did not. Paulo, 669
F. 3d at 917-918. Despite the government’s contention that this
“new” argument defeated issue preclusion, the court held that
“[t]he fact that a particular argument against [the plaintiff’s]
eligibility was not made by the government and not addressed by
the district court does not mean that the issue of [the plaintiff’s]
eligibility for . . . relief was not decided.” Id. (“If a party could
avoid issue preclusion by finding some argument it failed to raise
in the previous litigation, the bar on successive litigation would
be seriously undermined.”). Here, in contrast, the government
could not have made the arguments for inadmissibility on which
it based its denial of Plaintiff’s adjustment of status application
because the statutory grounds for those arguments did not exist
at the time the IJ granted Plaintiff asylum.

11a
Appendix B
estoppel arguments based on asylum determinations
before the PATRIOT Act or REAL ID Act became
effective. See Pl.’s Opp. at 5. But it appears to require
courts to determine, when reviewing collateral estoppel
arguments in this context, whether the pre-PATRIOT Act
and pre-REAL ID Act asylum proceedings involved the
“actual litigation” of issues upon which the government’s
later denial of an immigration benefit turns. If such
issues were not, or could not have been, actually litigated,
collateral estoppel cannot apply under Janjua. This is
such a case.
Plaintiff also requests “in the alternative” that the
Court permit “jurisdictional discovery” into whether “the
issue of terrorist activity was in fact actually litigated at
the asylum level.” Pl.’s Opp. at 7. If the question of whether
collateral estoppel applied in this case turned on a question
of fact, discovery would be necessary because courts may
not decide such questions at the pleading stage. Because
the Court can determine as a matter of law, however,
that the issues of whether Plaintiff provided material
support to, or received of military training from, a Tier
III terrorist organization were not actually litigated
during the asylum proceedings, any fact discovery into
the proceedings themselves would be futile.
The Court is not unsympathetic to Plaintiff ’s
predicament as there are many equities that favor his
cause. Janjua, however, is controlling Ninth Circuit
precedent and therefore the Court must apply it.

12a
Appendix B
III.
CONCLUSION
Because the Court determines that Plaintiff could not
cure the defects in his claims by alleging new or different
facts, leave to amend is DENIED. Knappenberger v. City
of Phoenix, 566 F.3d 936, 942 (9th Cir. 2009) (“Leave
to amend should be granted unless the district court
‘determines that the pleading could not possibly be cured
by the allegation of other facts.”).
For the foregoing reasons, Defendants’ MTD is
GRANTED with prejudice.
IT IS SO ORDERED.

13a
Appendix
C OF THE U.S.
APPENDIX C —
DECISION
CITIZENSHIP AND IMMIGRATION SERVICES,
DATED MARCH 21, 2019
U.S. Department of Homeland Security
U.S. Citizenship and Immigration Services
P.O. Box 82521
Lincoln, NE 68501-2521
U.S. Citizenship and Immigration Services
March 21, 2019
CHARLES SWIFT
CLCMA
833 EAST ARAPAHO ROAD STE 102
RICHARDSON, TX 75081
LIN1190312426
RE: MOHAMMAD SHARIF KHALIL
I-485, Application to Register Permanent Resident or
Adjust Status
DECISION
On January 31, 2011, you filed an Application to Register
Permanent Residence or Adjust Status (Form I-485)
in accordance with Section 209(b) of the Immigration
and Nationality Act (INA) (Title 8, United States Code,
section 1159). After consideration, it is the decision of
U.S. Citizenship and Immigration Services to deny your
Form I-485.

14a
Appendix C
Section 209(b) of the INA states in pertinent part:
The Secretary of Homeland Security or the
Attorney General, in the Secretary’s or the
Attorney General’s discretion and under such
regulations as the Secretary or the Attorney
General may prescribe, may adjust to the status
of an alien lawfully admitted for permanent
residence the status of any alien granted asylum
who(1) applies for such adjustment,
(2) has been physically present in the
United States for at least one year
after being granted asylum,
(3) continues to be a refugee within
the meaning of [INA] section 101(a)
(42)(A) of this title or a spouse or child
of such a refugee,
(4) is not firmly resettled in any
foreign country, and
(5) is admissible (except as otherwise
provided under subsection (c) of this
section) as an immigrant under this
chapter at the time of examination for
adjustment of such alien.

15a
Appendix C
The INA section 209(c) waiver of inadmissibility is not
available to aliens who are inadmissible under INA section
212(a)(3)(B) (terrorist activities).
Section 212(a)(3)(B) of the INA, as amended by the REAL
ID Act of 2005 states in pertinent part:
(i) In general. Any alien who(I) has engaged in a terrorist activity
... is inadmissible
INA section 212(a)(3)(B)(iv) defines “engage in terrorist
activity,” which includes at (I), in an individual capacity
or as a member of an organization “to commit or to incite
to commit, under circumstances indicating an intention to
cause death or serious bodily injury, a terrorist activity.”
INA section 212(a)(3)(B)(iii) defines “terrorist activity”
to include, in pertinent part: highjacking; kidnapping;
and the use of any explosive, firearm, or other weapon or
dangerous device (other than for mere personal monetary
gain) with the intent to endanger, directly or indirectly, the
safety of one or more individuals or to cause substantial
damage to property; and the attempt or threat to do any
of these activities.
INA section 212(a)(3)(B)(iv)(VI) includes in the definition
of “engaging in terrorist activity”: to commit an act that
the actor knows, or reasonably should know, affords
material support, including a safe house, transportation,
communications, funds, transfer of funds or other material

16a
Appendix C
financial benefit, false documentation or identification,
weapons (including chemical, biological, or radiological
weapons), explosives, or training-(dd) to a terrorist organization described in
clause (vi)(III), or to any member of such an
organization, unless the actor can demonstrate
by clear and convincing evidence that the actor
did not know, and should not reasonably have
known, that the organization was a terrorist
organization.
Terrorist organizations are defined at INA section
212(a)(3)(B)(vi). Section 212(a)(3)(B)(vi)(III) defines an
undesignated terrorist organization as “a group of two or
more individuals, whether organized or not, which engages
in, or has a subgroup which engages in, the activities
described in subclauses (I) through (VI) of clause (iv)” of
INA section 212(a)(3)(B) (also referred to as “Tier III”
organizations).
INA section 212(a)(3)(B)(i) makes an alien inadmissible
who “(I) has engaged in a terrorist activity” and who
“(VIII) has received military-type training (as defined in
section 2339D(c)(1) of title 18, United States Code) from or
on behalf of any organization that, at the time the training
was received, was a terrorist organization.”
You stated on your Form I-589, Application for Asylum,
filed on February 18, 2000, that your father and uncles
worked closely with Jamiat Islami, an organization led
by Bemahuddin Rabbani. You stated that you joined the

17a
Appendix C
Jamiat Islami Mujahedin at the age of 15. You stated
that you became a fighter at the age of 18. You supported
Jamiat Islami in their resistance against the Communists
and their fighting against Hekmatyar and his Hezb-iIslami party. You worked with your uncle and you were a
Mujahedin fighter specialized in the use of shoulder-heldrocket launchers. You stated that in March 1995, you fled
to Pakistan. After three weeks in Pakistan, you arrived
in Germany on April 16, 1995.
On your Addendum to Form I-485, Part 3, Section B, you
stated that you and your family, through the association
of your uncle, assisted the U.S.-backed Mujahedin who
provided you with “paramilitary training.” You stated that
your family was a part of the overwhelming majority of
Afghans who opposed the Communist regime and assisted
in the way that they could.
You told the asylum officer that your entire family was
involved with Jamiat Islami and that you were a member
since the age of 15. At 18 years of age, while a Jamiat
fighter, you fought the communists from 1986 until 1987
including as a “rocket specialist” using shoulder-based
surface to air missiles. After that, you fought against
the party of Hekmatyar and his Hezb-i-Islamic party.
Additionally, you told the asylum officer during your
interview that you were a supporter of Rabbani and your
membership began in 1984 and ended in 1995.
Jamiat-i Islami is a complex, predominantly ethnic-Tajik,
Islamist organization with an approximately 50-year
history, which has included engaging in political activities

18a
Appendix C
as a political party, and organizing armed resistance
to the Soviets, to Communist Afghans, to the Taliban,
and to rival Mujahideen factions. One author has noted
that the organization was about 25 percent Pashtun (See
Afghanistan: A Cultural and Political History, Thomas
Barfield, p.237, Princeton University Press (2012)). At
times, Jamiat Islami has held the presidency and other
high-level offices in Afghanistan.
In the late 1980s, according to Afghan sources in Quetta,
the Mujahideen forces included those under the command
of Mullah Naqib of Jamiat-e Islami, who took some 60
soldiers into custody, and those under the command
of Mullah Farooq, also of Jamiat-e Islami, who took
30 soldiers into custody. The soldiers were reportedly
executed because “no one could guarantee that they
were good Muslims.” Interview with Afghan exile in
Washington, D.C., January 21, 1991. See The Forgotten
War: Human Rights Abuses and Violations of the Laws Of
War Since the Soviet Withdrawal, Human Rights Watch,
note 115, Feb. 1991; see also, By All Parties to the Conflict:
Violations of the Laws of War in Afghanistan, Human
Rights Watch, p.63-64, March 1988.
It is noted that there are also reports of Jamiat efforts to
curtail abuses of prisoners by commanders, and to hold
trials of prisoners accused of wrong-doing, albeit often
ending in execution. See Tears, Blood and Cries”; Human
Rights in Afghanistan Since the Invasion 1979-1984,
Helsinki Watch, p.204-205, Dec. 1984.
In March 1992, the government of Afghanistan, at that
time led by Najibullah, president of Afghanistan and

19a
Appendix C
head of the People’s Democratic Party of Afghanistan,
collapsed. Najibullah’s government forces put up no
resistance to the various Mujahideen groups and Kabul
was captured without fighting. However, Jamiat forces
battled with rival Mujahideen groups for control, resulting
in tens of thousands of civilians killed or injured in fighting
in Kabul in 1992-1993. For example, on April 24, [1992] as
Hekmatyar was about to seize control of the city, Massoud
and Dostum’s forces entered Kabul, taking control of most
government ministries. Jamiat attacked Hezb-e Islami
forces occupying the interior ministry and Presidential
Palace, pushing Hezb-e Islami south and out of the city.
There was shelling and street-to-street fighting through
April 25 and 26. See Blood-Stained Hands: Past Atrocities
in Kabul and Afghanistan’s Legacy of Impunity, Human
Rights Watch, Jul. 7, 2005 (hereafter Blood-Stained
Hands). Reports describe the shelling of civilian areas by
all parties to the conflict, including Jamiat. Human Rights
Watch reported that:
With respect to Wahdat, Ittihad, and Jamiat
hostilities in west Kabul, there is compelling
evidence that factions regularly and intentionally
targeted civilians and civilian areas for attack,
and recklessly and indiscriminately fired
weapons into civilian areas. There is little
evidence that the factions made meaningful
efforts during hostilities to avoid harming
civilians or stopped attacks once the harm to
civilians was evident. See Blood-Stained Hands.
A former high-level official in Shura-e Nazar
confirmed that Jamiat troops on the Mamorine

20a
Appendix C
mountain (the western peak next to Television
Mountain and above west Kabul) regularly
launched rockets and artillery into the civilian
areas of west Kabul in 1992 and 1993. See
Blood-Stained Hands.
Some witnesses further stated that Jamiat forces would
target civilians for recreation during the conflict and
abduct civilians for ransom. Further, “Human Rights
Watch interviewed scores of journalists, health workers,
aid workers, taxi drivers, civil servants, and soldiers who
witnessed widespread pillage and looting by Jamiat ...
forces after the Najibullah government fell.” See BloodStained Hands.
In February 1993, Jamiat carried out the “Afshar
Campaign” that involved massive artillery strikes on
civilian areas of Afshar followed by a ground attack that
included shelling fleeing civilians. Human Rights Watch
reported that:
The Afshar campaign was marked by widespread
a nd ser ious v iolat ions of i nt er nat iona l
humanitarian law. War crimes included attacks
on the civilian population and civilian objects,
killings, torture and other inhumane treatment,
rape, abductions and forced disappearances,
forced labor, and pillage and looting .... [T]here
is compelling evidence that the senior ... Jamiat
commanders involved in the Afshar campaign
are implicated in these violations. It is also
possible that some commanders may be liable

21a
Appendix C
for crimes against humanity. Illegal acts that
were part of a widespread or systematic attack
on a civilian population, such as the killing or
abduction of members of certain minorities,
may amount to crimes against humanity. See
Blood-Stained Hands.
There are reports on continued armed conflict and serious
human rights abuses committed by Jamiat forces during
Rabbani’s June 1992 to September 1996 Presidency. For
example:
On the night of February 11, 1993, Jamiat-i
Islami forces and those of another faction, Abdul
Rasul Sayyaf’s Ittihad-i Islami, conducted a
raid in West Kabul, killing and “disappearing”
ethnic Hazara civilians, and committing
widespread rape. Estimates of those killed
range from about seventy to more than one
hundred.
A group meets the definition of an undesignated terrorist
organization (Tier III) when it engages in terrorist
activity or has a subgroup that engaged in terrorist
activity, as defined in INA section 212(a)(3)(B). Jamiati-Islami has engaged in extensive combat with the
Soviet army, the army of the People’s Democratic Party
of Afghanistan (which led Afghanistan for a number
of years), other Mujahideen, the Taliban, and regional
militia. Therefore, Jamiat-i-Islami meets the definition of
a Tier III organization while it engaged in these activities,
including during the period you were involved with it, from
approximately 1982 to 1995.

22a
Appendix C
On November 16, 2018, you were issued a Notice of
Intent to Deny (NOID). USCIS informed you that you
are inadmissible under INA section 212(a)(3)(B)(i)(I)
for having engaged in terrorist activities as defined by
2l2(a)(3)(B)(iii)(V)(b) when, as a Mujahideen fighter, you
used a rocket launcher to endanger the safety of one or
more individuals. You are also inadmissible as defined by
212(a)(3)(B)(iv)(VI) for having provided material support
to Jamiat Islami by working with your uncle and fighting
with the organization.
USCIS explained that there are no existing exercises of
the Secretary’s discretionary exemption authority under
INA section 212(d)(3)(B) that apply to the terrorismrelated inadmissibility grounds in your case. You were
given thirty days to respond.
On December 18, 2018, USCIS received your NOID
response. Your legal representative asserted that your
Form I-485, Application to Register Permanent Residence
or Adjust Status, warranted approval because USCIS is
collaterally estopped from finding you inadmissible based
on facts already adjudicated by an Immigration Judge.
After a thorough review of the record including your
response to the NOID, USCIS required additional
information and sent you a second NOID on February
19, 2019. USCIS informed you that you are inadmissible
under INA section 212(a)(3)(B)(i)(I) as an alien who has
engaged in terrorist activity (as defined at INA section
212(a)(3)(B)(iii)(V)(b)), for the use of a weapon with intent
to endanger the safety of one or more individuals or to

23a
Appendix C
cause substantial damage to property; and under INA
section (a)(3)(B)(iv)(VI )(dd), for the voluntary commission
of an act that afforded material support to a terrorist
organization and under INA section 212(a)(B)(i)(VIII)
for the voluntary receipt of military-type training from
a terrorist organization. There is no existing exercise of
the Secretary’s discretionary exemption authority under
INA section 212(d)(3)(B)(i) that applies to those grounds of
inadmissibility nor are those grounds waivable. For these
reasons, you are ineligible to adjust status under 209(b).
The second NOID included the following questions:
1. Material Support
a. What activities did you perform as a member of
Jamiat? Please list and describe each activity, including
dates.
b. What work did you provide for your uncle while you
were a member of Jamiat? Please list and describe each
duty, including dates.
2. Military-Type Training
a. What type of training did you receive as a member
of Jamiat from Jamiat?
b. When did you receive training?
c. What did the training include?

24a
Appendix C
d. Who trained you on the use of the shoulder-held
rocket launcher and other training you may have received?
You were given thirty days to respond.
On March 19,2019, USCIS received your second NOID
response. Your legal representative provided four
documents: the Form G-28, your Declaration, the
Declaration of Dr. Marc Sageman, and the article, “When
the CIA Played by the Rules,” Milt Bearden, The New
York Times, Nov. 4, 2005.
In your second NOID response, your representative
reasserted that your Form I- 485, Application to
Register Permanent Resident or Adjust Status, warrants
approval because your asylum application, in which your
involvement with Jamiat was noted, was granted by an
Immigration Judge. Your representative asserted that the
grant of asylum by the immigration judge precludes future
agency decisions to the contrary. Your representative
asserted that, under the doctrine of collateral estoppel,
USCIS cannot make a different determination on your
eligibility, because “[a] final decision of an Immigration
Judge was a preclusive effect on future litigation of an
agency’s decision,” citing Khan v. Johnson, 160 F. Supp.
3d 1199, 1210 (C.D. Cal. 2016); Amrollah v. Napolitano,
710 F.3d 568, 571 (5th Cir. 2013).
Your grant of asylum on March 30, 2000, and the current
adjudication of your Application to Adjust Status are
separate decisions relating to separate benefits. In order
to adjust status under INA section 209(b), you must be

25a
Appendix C
“admissible … at the time of examination for adjustment of
status.” The decision on your application to Adjust Status
is not bound by the decision on prior benefit adjudication.
This is especially true when as here there is no indication
that the issue of terrorist activity was actually litigated
before the Immigration Court. Further, some of the
grounds of inadmissibility that serve the basis of this
denial have been added to the INA since your asylum
grant.
In light of the above, you are inadmissible under INA
section 212(a)(3)(B)(i)(I) for having engaged in terrorist
activity as defined by 212(a)(3)(B)(iii)(V)(b) when, as a
Mujahedin fighter, you engaged in combat, including by
using a rocket launcher to endanger the safety of one or
more individuals. You are also inadmissible as defined by
212(a)(3)(B)(iv)(VI) for having provided material support
to Jamiat Islami, a Tier III terrorist organization,
by working with your uncle and by fighting with the
organization. The material support to a Tier III terrorist
organization provision was enacted as part of the USA
PATRIOT Act of 2001, see section 411(a)(l)(G), Pub. Law
107-56 (Oct. 26, 2001), and thus did not apply to your 2000
asylum adjudication. Further, you are inadmissible for
having received military-type training from a terrorist
organization pursuant to INA section 212(a)(3)(B)(i). The
military-type training provision was added to the INA
in 2005 after your asylum grant. See section 103(a) of
Division B of Pub. Law 109-13 (May 11, 2005).
Adjustment of Status under INA section 209(b) is
discretionary. Matter of K-A-, 23 I&N Dec. 661, 666

26a
Appendix C
(BIA 2004) (relief under section 209(b) of the Act is
discretionary). An applicant has the burden of showing
that discretion should be exercised in his favor. Matter of
Patel, 17 I&N Dec. 597 (BIA 1980); Matter of Leung, 16
I&N Dec. 12 (BIA 1976); Matter of Arai, 13 I&N Dec. 494
(BIA 1970). Additionally, the Attorney General in Matter
of Jean, 23 I&N Dec 373 (A.G. 2002), stated, “[f]rom its
inception, the United States has always been a nation of
immigrants; it is one of our greatest strengths. But aliens
arriving at our shores must understand that residency in
the United States is a privilege, not a right.”
Your representative stated that USCIS should not consider
Jamiat a Tier III terrorist organization at the time you
were involved, because doing so would effectively render
the United States a state sponsor of terrorism. Your
representative contends that this would be inconsistent
with the policies of the U.S. government openly taken and
advocated at all times relevant to you, as described by both
the senior intelligence officer at the time (Referencing Ex.
D to the NOID response) and Dr. Sageman, a recognized
expert on the subject (Referencing Ex. C to the NOID
response). Your representative stated that given the fact
that you fully disclosed his activities at the time of his
asylum hearing in 2000, it is clear that the United States
did not view Jamiat as a terrorist organization and his
actions therefore did not prevent his entry into the United
States.
Your representative also stated that USCIS should grant
a waiver in your favor because Jamiat was an ally of the
United States at the time and has been a consistent ally

27a
Appendix C
of the United States for forty years, as pointed out by Dr.
Sageman (Ex. C to the NOID response).
The fact that the United States supported Mujahideen
fighting the Soviet and Soviet-sponsored A fghan
government does not make the group you were a member
of any less of a terrorist organization as defined at INA
section 212(a)(3)(B)(vi), or your actions any less a terrorist
activity as defined at INA section 212(a)(3)(B). There is
no exception for groups allied with and supported by the
United States. (See In re S-K-, 23 I&N Dec. 936, 941
(BIA 2006), noting that “Congress intentionally deafted
the terrorist bars to relief very broadly, to include even
those people described as ‘freedom fighters,’ and it did
not intend to give us discretion to create exceptions for
members of organizations to which our Government
might be symphathetic.”)). This is further evidenced by
the fact that in 2007, Congress explicitly excluded certain
groups that were allied with the United States during
the Vietnam War from the INA definition of terrorist
organizations (See section 691(b) of Division J of the
Consolidated Appropriations Act of 2008 (CAA), Pub.
Law 110-161 (Dec. 27, 2007), excluding appropriate groups
affiliated with the Hmong and Montagnards). There would
be no need for Congress to exclude such groups from the
definition of terrorist organizations if they were already
excluded from the definition by virtue of having been being
allied with and even supported by the United States.
Your representative also stated that you warrant a
favorable decision because positive factors outweigh your
involvement with the Jamiat. Namely, the nearly 18 years

28a
Appendix C
you have spent in the United States with your spouse, a
United States Lawful Permanent Resident, and your six
children, all U.S. citizens. Your counsel asserts that one
of the core legal principles in immigration law is the focus
on keeping a bona fide immigrant family united.
The nearly 18 years you have resided in the United States
and the fact that you have family members who reside here
are indeed positive factors. However, after careful review
of all of the facts, USCIS has determined that you do not
warrant adjustment of status as a matter of discretion
even if you were statutorily qualified for adjustment of
status. The positive factors in your case are outweighed
by your use of a dangerous weapon when you used rocket
launchers in combat as a Mujahideen fighter. You argue
in your response to the NOID that discretion should
be exercised in your favor in order to keep your family
together. However, the denial of your adjustment of status
application would not terminate your asylum status and
thus would not cause your family to be separated.
In your declaration in response to the NOID, you stated
that you did not volunteer for Jamiat-i-Islami but were
brought by your family. Your uncle, Mohammad Rasul, was
a well-known commander of the Jamiat-i-Islami party. You
stated that you did not work directly under him because
you were a junior member of the force and were very
young. You were assigned to the rocket team. You stated
that the rocket weapon did not have any special aiming.
Your job was only to carry up to three additional rockets
in case they were needed.

29a
Appendix C
You stated that you did not receive any formal training for
the job. The training you received was from the person
you called “the rocket man”. “He told all the members
of his team how to fire the rocket in case he was killed
or injured and could not fight. He also taught you how to
clean and load the weapon as you were operating on the
field.” You stated that you mostly learned to operate it by
watching him operate it and explain what he was doing.
Receiving military-type training from a foreign terrorist
organization as defined by 18 U.S.C. section 2339D
“military-type training” includes training in means or
methods that can cause death or serious bodily injury,
destroy or damage property, or disrupt services to critical
infrastructure, or training on the use, storage, production,
or assembly of any explosive, firearm or other weapon,
including any weapon of mass destruction (as defined in
section 2232a(c)(2). You stated you did not receive any
formal training on use of the rockets and that the weapon
was more like a grenade launcher. However, you were
taught how to fire a weapon which qualifies as militarytype training under 18 U.S.C. section 2339D. Since you
received the training from an organization that qualified
as an undesignated terrorist organization at the time, you
are also inadmissible on that ground.
You stated on your Form I-589, Application for Asylum,
that you became a Mujahedin fighter and specialized in
the use of shoulder-held-rocket launchers.
On your Addendum to Form 1-485, Part 3, Section B, you
stated that you and your family, through the association

30a
Appendix C
of your uncle, assisted the U.S. backed Mujahedin who
provided you with “paramilitary training.”
You told the asylum officer that at 18 years of age, while a
Jamiat fighter, you fought the communists from 1986 until
1987 including as a “rocket specialist” using shoulderbased surface to air missiles.
The burden is on the applicant to establish eligibility for
the benefit sought. INA section 291. Based on the above,
USCIS finds that you have not established your eligibility
for the benefit sought.
There is no ex isting exercise of the Secretar y ’s
discretionary exemption authority pursuant to INA
section 212(d)(3)(B)(i) that applies to your activities with
Jamiat Islami which are subject to the terrorist-related
inadmissibility grounds described above. Since you are
inadmissible and that inadmissibility is not waivable or
subject to an exemption, you are ineligible to adjust status
under 209(b).
Accordingly, your application is denied.
NOTICE: USCIS regulations do not provide for an appeal
to this decision. However, you may file a motion to reopen
or reconsider an adverse decision. A motion must be filed
using Form I-290B, Notice of Appeal or Motion. Form
I-290B must be filed within 30 days from the date of this
notice (33 days if this notice was received by mail) with
the appropriate filing fee and other documentation in
support of the motion. Do not send the completed Form

31a
Appendix C
I-290B directly to the Nebraska Service Center. For more
information about filing motions, as well as fee required
and filing locations, and to download Form I-290B, please
visit the USCIS website at www.uscis.gov. You may also
contact the USCIS Contact Center at 800-375-5283.
Sincerely,
/s/			
Loren K. Miller
Director
Officer: 0899

32a
D § 1182(a)(3)(B)
APPENDIX DAppendix
— 8 U.S.C.
8 U.S.C. § 1182(a)(3)(B) provides in relevant part:
(B) Terrorist activities.
(i) In general. Any alien who—
(I) has engaged in a terrorist activity;
(II) a consular officer, the Attorney General, or
the Secretary of Homeland Security knows, or has
reasonable ground to believe, is engaged in or is
likely to engage after entry in any terrorist activity
(as defined in clause (iv));
(III) has, under circumstances indicating an
intention to cause death or serious bodily harm,
incited terrorist activity;
(IV) is a representative (as defined in clause (v))
of—
(aa) a terrorist organization (as defined in
clause (vi)); or
(bb) a political, social, or other group that
endorses or espouses terrorist activity;
(V) is a member of a terrorist organization
described in subclause (I) or (II) of clause (vi);

33a
Appendix D
(VI) is a member of a terrorist organization
described in clause (vi)(III), unless the alien can
demonstrate by clear and convincing evidence that
the alien did not know, and should not reasonably
have known, that the organization was a terrorist
organization;
(VII) endorses or espouses terrorist activity or
persuades others to endorse or espouse terrorist
activity or support a terrorist organization;
(VIII) has received military-type training (as
defined in section 2339D(c)(1) of title 18, United States
Code [18 USCS § 2339D(c)(1)]) from or on behalf of
any organization that, at the time the training was
received, was a terrorist organization (as defined in
clause (vi)); or
(IX) is the spouse or child of an alien who is
inadmissible under this subparagraph, if the activity
causing the alien to be found inadmissible occurred
within the last 5 years, is inadmissible.
***
(iii) “Terrorist activity” defined. As used in this Act,
the term “terrorist activity” means any activity which is
unlawful under the laws of the place where it is committed
(or which, if it had been committed in the United States,
would be unlawful under the laws of the United States or
any State) and which involves any of the following:

34a
Appendix D
(I) The highjacking or sabotage of any conveyance
(including an aircraft, vessel, or vehicle).
(II) The seizing or detaining, and threatening to
kill, injure, or continue to detain, another individual
in order to compel a third person (including a
governmental organization) to do or abstain from
doing any act as an explicit or implicit condition for
the release of the individual seized or detained.
(III) A violent attack upon an internationally
protected person (as defined in section 1116(b)(4) of
title 18, United States Code) or upon the liberty of
such a person.
(IV) An assassination.
(V) The use of any—
(a) biological agent, chemical agent, or nuclear
weapon or device, or
(b) explosive, firearm, or other weapon or
dangerous device (other than for mere personal
monetary gain), with intent to endanger, directly
or indirectly, the safety of one or more individuals
or to cause substantial damage to property.
(VI) A threat, attempt, or conspiracy to do any
of the foregoing.

35a
Appendix D
(iv) “Engage in terrorist activity” defined. As used in
this Act, the term “engage in terrorist activity” means, in
an individual capacity or as a member of an organization—
(I) to commit or to incite to commit, under
circumstances indicating an intention to cause death
or serious bodily injury, a terrorist activity;
(II) to prepare or plan a terrorist activity;
(III) to gather information on potential targets
for terrorist activity;
(IV) to solicit funds or other things of value for—
(aa) a terrorist activity;
(bb) a terrorist organization described in
clause (vi)(I) or (vi)(II); or
(cc) a terrorist organization described
in clause (vi)(III), unless the solicitor can
demonstrate by clear and convincing evidence
that he did not know, and should not reasonably
have known, that the organization was a terrorist
organization;
***
(vi) “Terrorist organization” defined. As used in
this section, the term “terrorist organization” means an
organization—

36a
Appendix D
(I) designated under section 219 [8 USCS § 1189];
(II) otherwise designated, upon publication in
the Federal Register, by the Secretary of State in
consultation with or upon the request of the Attorney
General or the Secretary of Homeland Security,
as a terrorist organization, after finding that the
organization engages in the activities described in
subclauses (I) through (VI) of clause (iv); or
(III) that is a group of two or more individuals,
whether organized or not, which engages in, or has a
subgroup which engages in, the activities described
in subclauses (I) through (VI) of clause (iv).

37a
Appendix
APPENDIX E — NOTICE
OFEINTENT TO DENY
OF THE U.S. CITIZENSHIP AND IMMIGRATION
SERVICES, DATED NOVEMBER 16, 2018
U.S. Department of Homeland Security
U.S. Citizenship and Immigration Services
P.O. Box 82521
Lincoln, NE 68501-2521
U.S. Citizenship and Immigration Services
November 16, 2018
SEHLA ASHAI
CLCMA
833 EAST ARAPAHO ROAD STE 102
RICHARDSON, TX 75081
LIN1190312426
RE: MOHAMMAD SHARIF KHALIL
I-485, Application to Register Permanent Residence or
Adjust Status
NOTICE OF INTENT TO DENY
This notice refers to the Form 1-485, Application to
Register Permanent Residence or Adjust Status, you filed
with this office on January 31, 2011. You are requesting an
adjustment of status under Section 209 of the Immigration
and Nationality Act (INA) (Title 8, United States Code,
section 1159).
Section 209(b) of the INA states:

38a
Appendix E
… The Secretary of Homeland Security or the Attorney
General, in the Secretary’s or the Attorney General’s
discretion and under such regulations as the Secretary
or the Attorney General may prescribe, may adjust to
the status of an alien lawfully admitted for permanent
residence the status of any alien granted asylum who(1) applies for such adjustment,
(2) has been physically present in the United States for at
least one year after being granted asylum,
(3) continues to be a refugee within the meaning of [INA]
section 101(a)(42)(A) of this title or a spouse or child of
such a refugee,
(4) is not firmly resettled in any foreign country, and
(5) is admissible (except as otherwise provided under
subsection (c) of this section) as an immigrant under this
chapter at the time of examination for adjustment of such
alien.
The INA section 209(c) waiver of inadmissibility is not
available to aliens who are inadmissible under INA section
212(a)(3)(B) (terrorist activities).
Section 212(a)(3)(B) of the INA, as amended by the REAL
ID Act of 2005, describes an alien who is inadmissible and
states in pertinent part:
(i) In general. Any alien who-

39a
Appendix E
(1) has engaged in a terrorist activity … is inadmissible
INA section 212(a)(3)(B)(iv) defines “engage in terrorist
activity,” which includes at (I), in an individual capacity
or as a member of an organization “to commit or to incite
to commit, under circumstances indicating an intention to
cause death or serious bodily injury, a terrorist activity.”
INA section 212(a)(3)(B)(iii) defines terrorist activity,
and includes activities such as highjacking; kidnapping;
and the use of any explosive, firearm, or other weapon or
dangerous device, other than for mere personal monetary
gain, with the intent to endanger, directly or indirectly, the
safety of one or more individuals or to cause substantial
damage to property; and the attempt or threat to do any
of these activities.
INA section 212(a)(3)(B)(iv)(VI) includes in the definition
of engaging in terrorist activity (VI) to commit an act
that the actor knows, or reasonably should know, affords
material support, including a safe house, transportation,
communications, funds, transfer of funds or other material
financial benefit, false documentation or identification,
weapons (including chemical, biological, or radiological
weapons), explosives, or training-(dd) to a terrorist organization described in clause
(vi)(III), or to any member of such an organization,
unless the actor can demonstrate by clear and convincing
evidence that the actor did not know, and should not
reasonably have known, that the organization was a
terrorist organization.

40a
Appendix E
INA section 212(a)(3)(B)(vi)(III) defines a undesignated
Tier III terrorist organization as “(III) that is a group
of two or more individuals, whether organized or not,
which engages in, or has a subgroup which engages in,
the activities described in subclauses (I) through (VI) of
clause (iv).”
You stated on your 1-589 Application for Asylum. filed
on February 18, 2000, that you became a member of
Jamiat Islami, also known as Jamiat-i-Islami, when you
were fifteen years old. This would have been in 1982.
You stated that when you were eighteen years old, you
became a Mujahideen fighter for the group. You supported
the Jamiat Islami in its resistance to the Communists,
and in fighting against the Hezb-i-Islami Party led by
Hekmatyar. You specialized in the use of shoulder held
rocket launchers. You also stated that you worked with
your uncle, who was very close to the chief leader of the
Jamiat Islami Party, Burhanuddin Rabbani. In March,
1995, you fled to Pakistan.
Jamiat-i Islami is a complex, predominantly ethnic-Tajik,
Islamist organization with an approximately 50-year
history, which has included engaging in political activities
as a political party, and organizing armed resistance
to the Soviets, to Communist Afghans, to the Taliban,
and to rival Mujahideen factions. (One author noted that
the organization was about 25 percent Pashtun. See
Afghanistan: A Cultural and Political History, Thomas
Barfield, p.237, Princeton University Press (2012)). At
times Jamiat Islami has held the presidency and other
high-level offices in Afghanistan.

41a
Appendix E
In the late 1980s, according to Afghan sources in Quetta,
the Mujahideen forces included those under the command
of Mullah Naqib of Jamiat-e Islami, who took some 60
soldiers into custody, and those under the command
of Mullah Farooq, also of Jamiat-e Islami, who took
30 soldiers into custody. The soldiers were reportedly
executed because “no one could guarantee that they
were good Muslims.” Interview with Afghan exile in
Washington, D.C., January 21, 1991. (See The Forgotten
War: Human Rights Abuses and Violations of the Laws Of
War Since the Soviet Withdrawal, Human Rights Watch,
note 115, Feb. 1991; see also, By All Parties to the Conflict:
Violations of the Laws of War in Afghanistan, Human
Rights Watch, p.63-64, March 1988).
It is noted that there are also reports of Jamiat efforts to
curtail abuses of prisoners by commanders, and to hold
trials of prisoners accused of wrong-doing, albeit often
ending in execution. (See Tears, Blood and Cries”: Human
Rights in Afghanistan Since the Invasion 1979-1984.,
Helsinki Watch, p.204-205, Dec. 1984).
In March 1992, under the leadership of Najibullah,
president of Afghanistan and head of the People’s
Democratic Party of Afghanistan, the government
collapsed. Najibullah’s government forces put up no
resistance to the Mujahideen and Kabul was captured
without fighting. However, Jamiat forces battled with rival
Mujahideen for control, resulting in tens of thousands of
civilians killed or injured in fighting in Kabul in 1992-1993.
For example:

42a
Appendix E
On April 24, [1992] as Hekmatyar was about to seize
control of the city, Massoud and Dostum’s forces entered
Kabul, taking control of most government ministries.
Jamiat attacked Hezb-e Islami forces occupying the
interior ministry and Presidential Palace, pushing Hezb-e
Islami south and out of the city. There was shelling and
street-to-street fighting through April 25 and 26. Reports
describe the shelling of civilian areas by all parties to the
conflict, including Jamiat. Human Rights Watch reported
that:
With respect to Wahdat, Ittihad, ,and Jamiat hostilities
in west Kabul, there is compelling evidence that factions
regularly and intentionally targeted civilians and civilian
areas for attack, and recklessly and indiscriminately fired
weapons into civilian areas. There is little evidence that
the factions made meaningful efforts during hostilities to
avoid harming civilians or stopped attacks once the harm
to civilians was evident. (See Blood-Stained Hands: Past
Atrocities in Kabul and Afghanistan’s Legacy of Impunity,
Human Rights Watch, Jul. 7, 2005).
A former high-level official in Shura-e Nazar confirmed
that Jamiat troops on the Mamorine mountain (the
western peak next to Television Mountain and above
west Kabul) regularly launched rockets and artillery
into the civilian areas of west Kabul in 1992 and 1993.
Some witnesses further stated that Jamiat forces would
target civilians for recreation during the conflict and
abduct civilians for ransom. Further, “Human Rights
Watch interviewed scores of journalists, health workers,
aid workers, taxi drivers, civil servants, and soldiers who

43a
Appendix E
witnessed widespread pillage and looting by Jamiat . . .
forces after the Najibullah government fell.” (See BloodStained Hands: Past Atrocities in Kabul and Afghanistan’s
Legacy of Impunity, Human Rights Watch, Jul. 7, 2005).
In February 1993, Jamiat carried out the “Afshar
Campaign” that involved massive artillery strikes on
civilian areas of Afshar followed by a ground attack that
included shelling fleeing civilians. Human Rights Watch
reported that:
The Afshar campaign was marked by widespread and
serious violations of international humanitarian law. War
crimes included attacks on the civilian population and
civilian objects, killings, torture and other inhumane
treatment, rape, abductions and forced disappearances,
forced labor, and pillage and looting . . . . [T]here is
compelling evidence that the senior . . . Jamiat commanders
involved in the Afshar campaign are implicated in these
violations. It is also possible that some commanders
may be liable for crimes against humanity. Illegal acts
that were part of a widespread or systematic attack on
a civilian population, such as the killing or abduction of
members of certain minorities, may amount to crimes
against humanity. (See Blood-Stained Hands: Past
Atrocities in Kabul and Afghanistan’s Legacy of Impunity,
Human Rights Watch, Jul. 7, 2005).
There are reports on continued armed conflict and serious
human rights abuses committed by Jamiat forces during
Rabbani’s June 1992 to September 1996 Presidency. For
example:

44a
Appendix E
On the night of February 11, 1993, Jamiat-i Islami forces
and those of another faction, Abdul Rasul Sayyaf’s
Ittihad-i Islami, conducted a raid in West Kabul,
killing and “disappearing” ethnic Hazara civilians, and
committing widespread rape. Estimates of those killed
range from about seventy to more than one hundred.
A group meets the definition of an undesignated terrorist
organization (Tier III) when it engages in terrorist
activity or has a subgroup that engaged in terrorist
activity, as defined in INA Section 212(a)(3)(B). Jamiat-iIslami has engaged in extensive violent combat with the
Soviet army, the army of the People’s Democratic Party
of Afghanistan (which led Afghanistan for a number
of years), other Mujahideen, the Taliban, and regional
militia. Therefore, Jamiat-i-Islami meets the definition of
a Tier ill organization while it engaged in these activities,
including during the period you were involved with it (from
1982-1995).
You are inadmissible under INA section 212(a)(3)(B)(i)(I)
for having engaged in terrorist activities as defined by
212(a)(3)(B)(iii)(V)(b) when, as a Mujahideen fighter, you
used a rocket launcher to endanger the safety of one or
more individuals. You are also inadmissible as defined by
212(a)(3)(B)(iv)(VI) for having provided material support
to Jamiat Islami by working with your uncle and by
fighting with the organization.
There is no ex isting exercise of the Secretar y ’s
discretionary exemption authority under INA section
212(d)(3)(B)(i) that applies to the terrorist-related

45a
Appendix E
inadmissibility grounds at issue in your case. Since you
are inadmissible and that inadmissibility is not waivable
or subject to an exemption, you are ineligible to adjust
status under 209(b).
Since you not only provided material support to the
Jamiat Islami while you were a member, but you also
personally engaged in terrorist activity when you used
a rocket launcher with intent to endanger the safety of
one or more individuals, USCIS finds that you do not
warrant adjustment of status as a matter of discretion in
the totality of the circumstances.
Adjustment of Status under INA Section 209(b) is
discretionary. Matter of K-A-, 23 I&N Dec. 661, 666
(BIA 2004) (relief under section 209(b) of the Act is
discretionary). An applicant has the burden of showing
that discretion should be exercised in his favor. Matter of
Patel, 17 I&N Dec. 597 (BIA 1980); Matter of Leung, 16
I&N Dec. 12 (BIA 1976); Matter of Arai, 13 I&N Dec. 494
(BIA 1970). Additionally, the Attorney General in Matter
of Jean, 23 I&N Dec 373 (A.G. 2002), stated, “[f]rom its
inception, the United States has always been a nation of
immigrants; it is one of our greatest strengths. But aliens
arriving at our shores must understand that residency in
the United States is a privilege, not a right.”
The nearly 18 years you have spent in the United States
and the fact that you have family members who reside
here are positive factors. However, any positive factors
are outweighed by your terrorist activities. After careful
review of all the facts, USCIS has determined that the

46a
Appendix E
positive factors do not outweigh the negative factors and
that your application for adjustment of status should be
denied as a matter of discretion in addition to the statutory
ineligibility cited above.
Accordingly, USCIS intends to deny your application to
adjust status.
You have 33 days from the date on this letter to respond to
this Notice of Intent to Deny. Your written response and
any attached documents must be mailed to the address at
the top of this Notice with a copy of this Notice of Intent to
Deny firmly attached to the front of your response packet.
At the end of the 33 day period, if no response is received,
or after receiving and considering your response, USCIS
will make a final decision on your Form 1-485, Application
to Register Permanent Residence or Adjust Status.
Sincerely,
/s/
Loren K. Miller
Director
Officer: 0899

47a
Appendix
APPENDIX F — NOTICE
OFFINTENT TO DENY
OF THE U.S. CITIZENSHIP AND IMMIGRATION
SERVICES, DATED FEBRUARY 14, 2019
U.S. Department of Homeland Security
U S Citizenship and Immigration Services
P O Box 82521
Lincoln, NE 68501-2521
U.S. Citizenship and Immigration Services
February 14, 2019
SEHLA ASHAI
CLCMA
833 EAST ARAPAHO ROAD STE 102
RICHARDSON, TX 75081
LIN1190312426
RE: MOHAMMAD SHARIF KHALIL
I-485, Application to Register Permanent Residence or
Adjust Status
NOTICE OF INTENT TO DENY
This notice refers to the Form 1-485, Application to
Register Permanent Residence or Adjust Status, you filed
with this office on January 31, 2011. You are requesting an
adjustment of status under Section 209 of the Immigration
and Nationality Act (INA) (Title 8, United States Code,
section 1159).

48a
Appendix F
Section 209(b) of the INA states:
...The Secretary of Homeland Security or the Attorney
General, in the Secretary’s or the Attorney General’s
discretion and under such regulations as the Secretary
or the Attorney General may prescribe, may adjust to
the status of an alien lawfully admitted for permanent
residence the status of any alien granted asylum who(1) applies for such adjustment,
(2) has been physically present in the United States for at
least one year after being granted asylum,
(3) continues to be a refugee within the meaning of [INA]
section 101(a)(42)(A) of this title or a spouse or child of
such a refugee,
(4) is not firmly resettled in any foreign country, and (5) is
admissible (except as otherwise provided under subsection
(c) of this section) as an immigrant under this chapter at
the time of examination for adjustment of such alien.
The INA section 209(c) waiver of inadmissibility is not
available to aliens who are inadmissible under INA section
212(a)(3)(B) (terrorist activities). Section 212(a)(3)(B) of the
INA, as amended by the REAL ID Act of 2005, describes
an alien who is inadmissible and states in pertinent part:
(i) In general. Any alien who- (I) has engaged in a terrorist
activity ...is inadmissible
INA section 212(a)(3)(B)(i) makes an alien inadmissible
who “(I) has engaged in a terrorist activity” and who

49a
Appendix F
“(VIII) has received military-type training (as defined in
section 2339D(c)(l) of title 18, United States Code) from or
on behalf of any organization that, at the time the training
was received, was a terrorist organization.”
INA section 212(a)(3)(B)(iv) defines “engage in terrorist
activity,” which includes at (I), in an individual capacity
or as a member of an organization “to commit or to incite
to commit, under circumstances indicating an intention to
cause death or serious bodily injury, a terrorist activity.”
INA section 212(a)(3)(B)(iii) defines terrorist activity,
and includes activities such as highjacking; kidnapping;
and the use of any explosive, firearm, or other weapon or
dangerous device, other than for mere personal monetary
gain, with the intent to endanger, directly or indirectly, the
safety of one or more individuals or to cause substantial
damage to property; and the attempt or threat to do any
of these activities.
INA section 212(a)(3)(B)(iv)(VI) includes in the definition
of engaging in terrorist activity (VI) to commit an act
that the actor knows, or reasonably should know, affords
material support, including a safe house, transportation,
communications, funds, transfer of funds or other material
financial benefit, false documentation or identification,
weapons (including chemical, biological, or radiological
weapons), explosives, or training—
(dd) to a terrorist organization described in clause (vi)
(III), or to any member of such an organization, unless the
actor can demonstrate by clear and convincing evidence

50a
Appendix F
that the actor did not know, and should not reasonably have
known, that the organization was a terrorist organization.
Section 2339D(c)(1) of Title 18 of the United States Code
defines “military-type training” as “training in means
or methods that can cause death or serious bodily injury,
destroy or damage property, or disrupt services to critical
infrastructure, or training on the use, storage, production,
or assembly of any explosive, firearm or other weapon,
including any weapon of mass destruction (as defined in
section 2232a(C)(2).”
You stated on your Form 1-589, Application for Asylum,
filed on February 18, 2000, that your father and uncles
worked closely with Jamiat Islami, an organization led
by Bernahuddin Rabbani. You stated that you joined the
Jamiat Islami Mujahedin at the age of 15. You stated that
you became a fighter at the age of 18. You supported Jamiat
Islami in their resistance against the Communists and
their fighting against Hekmatyar and his Hezb-i-Islami
party. You worked with your uncle, were a Mujahedin
fighter and specialized in the use of shoulder-held rocket
launchers. You stated that in March, 1995, you fled to
Pakistan. After three weeks to Pakistan, you arrived in
Germany on April 16, 1995.
On your Addendum to Form 1-485, Part 3, Section B, you
stated that you and your family, through the association
of your uncle, assisted the U.S.-backed Mujahedin who
provided you with “paramilitary training.” You stated that
your family was a part of the overwhelming majority of
Afghans who opposed the Communist regime and assisted
in the way that they could.

51a
Appendix F
You told the asylum officer that your entire family was
involved with Jamiat Islami and that you were a member
since the age of 15. At 18 years of age, while a Jamiat
fighter, you fought the communists from 1986 until 1987
including as a “rocket specialist” using shoulder-based
surface to air missiles. After that, you fought against
the party of Hekmatyar and his Hezb-i-Islamic party.
Additionally, you told the asylum officer during your
interview that you were a supporter of Rabbani and your
membership began in 1984 and ended 1995.
On November 16, 2018, USCIS sent you a Notice of
Intent to Deny (NOID) stating that you are inadmissible
under INA section 212(a)(3)(B)(i)(I) for having engaged
in terrorist activities as defined by 212(a)(3)(B)(iii)(V)(b)
when, as a Mujahedin fighter, you used a rocket launcher to
endanger the safety of one or more individuals. You are also
inadmissible as defined by 212(a)(3)(B)(iv)(VI) for having
provided material support to Jamiat lslami by working with
your uncle and by fighting with the organization.
On December 18, 2018, USCIS received your NOID
response. Your legal representative asserted that your
Form I-485, Application to Register or Adjust Status,
warrants approval because USCIS is collaterally estopped
from finding you inadmissible based on facts already
adjudicated by an Immigration Judge.
Your representative also stated that you warrant a
favorable decision because positive factors outweigh your
involvement with the Jamiat. Namely, the nearly 18 years
you have spent in the United States with your spouse, a

52a
Appendix F
United States Lawful Permanent Resident, and your six
children, all U.S. citizens. Your counsel asserts that one
of the core legal principles in immigration law is the focus
on keeping a bona fide immigrant family united.
After thorough review of the record including your
response to the NOID, USCIS requires additional
information on the following issues. While USCIS still
intends to deny your application, this information will
allow USCIS to better evaluate the arguments you raised
in response to the NOID.
1. Material Support
You stated on your Form I-589 and Form I-485 Addendum
that you were a member of Jamiat from 1982 until 1995.
Your asylum interview records indicate that you were a
member of Jamiat from 1984 until 1995. You stated on your
Form I-589 and Form I-485 Addendum that you worked
with your uncle while a member of Jamiat. Please answer
the following questions to the best of your ability.
a.

What activities did you perform as a member of
Jamiat? Please list and describe each activity,
including dates.

b.

What work did you provide for your uncle while
you were a member of Jamiat? Please list and
describe each duty, including dates.

53a
Appendix F
2. Military-Type Training
You stated on your Form I-589 that you were a Mujahedin
fighter and specialized in the use of shoulder-held rocket
launchers. You stated that you became a fighter at the age
of 18. You supported the Jamiat in their resistance against
the Communists and their fighting against Hekmatyar
and his Hezb-i-Islami party. You also worked with your
uncle while a member of Jamiat.
On your Form I-485 Addendum, you stated that you
and your family, through the association of your uncle,
assisted the U.S.-backed Mujahedin wherein you received
“paramilitary training.”
You stated that your family was a part of the overwhelming
majority of Afghans who opposed the Communist regime
and assisted in the way that they could.
You told the asylum officer that at 18 years of age, you
fought against the communists, then fought against
Hekmatyar and his Hezb-i-Islami party. According to the
record, your activities with Jamiat Islami included being
a shoulder-based surface to air missile “rocket specialist”
at 18 years of age. You also fought the communists from
1986 until 1987. Please answer the following questions to
the best of your ability.
a.

What type of training did you receive as a
member of Jamiat or from Jamiat?

b.

When did you receive training?

54a
Appendix F
c.

What did the training include?

d.

Who trained you on the use of the shoulder-held
rocket launcher and other training you may have
received?

You are inadmissible for voluntary receipt of militarytype training from a terrorist organization under INA
Section 212(a)(3)(B)(i)(VIII), use of a weapon with intent
to endanger the safety of one or more individuals or to
cause substantial damage to property under INA section
212(A)(3)(B)(iii)(V)(b), and voluntary commission of an act
that afforded material support to a terrorist organization
under INA section 212(a)(3)(B)(iv)(Vl)(dd). There is
no existing exercise of the Secretary’s discretionary
exemption authority under INA section 212(d)(3)(B)(i) that
applies to those grounds of inadmissibility nor are those
grounds waivable. For these reasons, you are ineligible
to adjust status under 209(b).
In addition, because of your close relationship with Jamiat
Islami over a period of more than ten years, USCIS finds
that you do not warrant adjustment of status as a matter
of discretion in the totality of the circumstances.
Adjustment of Status under INA Section 209(b) is
discretionary. Matter ofK-A-, 23 I & N Dec. 661, 666
(BIA 2004) (relief under section 209(b) of the Act is
discretionary). An applicant has the burden of showing
that discretion should be exercised in his favor. Matter of
Patel, 17 l&N Dec. 597 (BIA 1980); Matter of Leung, 16
I&N Dec. 12 (BIA 1976); Matter of Arai, 13 I&N Dec. 494

55a
Appendix F
(BIA 1970). Additionally, the Attorney General in Matter
of Jean, 23 I&N Dec 373 (A.G. 2002), stated, “[f]rom its
inception, the United States has always been a nation of
immigrants; it is one of our greatest strengths. But aliens
arriving at our shores must understand that residency in
the United States is a privilege, not a right.”
The nearly 18 years you have spent in the United States
and the fact that you have family members who reside
here are positive factors. However, any positive factors
are outweighed by your close association with, and support
for a terrorist organization. After careful review of all the
facts, USCIS has determined that the positive factors do
not outweigh the negative factors and that your application
for adjustment of status should be denied as a matter of
discretion in addition to the statutory ineligibility cited
above.
Accordingly, USCIS intends to deny your application to
adjust status.
You have 33 days from the date on this letter to respond to
this Notice of Intent to Deny. Your written response and
any attached documents must be mailed to the address at
the top of this Notice with a copy of this Notice of Intent to
Deny firmly attached to the front of your response packet.
At the end of the 33 day period, if no response is received,
or after receiving and considering your response, USCIS
will make a final decision on your Form I-485, Application
to Register Permanent Residence or Adjust Status.

56a
Appendix F
Sincerely,
/s/
Loren K. Miller
Director
Officer: 0899

